<html>
<title> - OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                           OVERSIGHT OF THE 
                    FEDERAL BUREAU OF INVESTIGATION

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2015

                               __________

                           Serial No. 114-55

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                               ___________
                               
                        
                        U.S.GOVERNMENT PUBLISHING OFFICE
97-262 PDF                    WASHINGTON : 2016
                       
                       
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  
                       
                       
                       
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                            
                            C O N T E N T S

                              ----------                              

                            OCTOBER 22, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

The Honorable James B. Comey, Director, Federal Bureau of 
  Investigation
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to the Honorable James B. 
  Comey, Director, Federal Bureau of Investigation...............    76

 
                           OVERSIGHT OF THE 
                    FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:15 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Smith, Chabot, Issa, 
Forbes, King, Franks, Gohmert, Poe, Chaffetz, Marino, Labrador, 
Collins, DeSantis, Buck, Ratcliffe, Trott, Bishop, Conyers, 
Lofgren, Jackson Lee, Cohen, Johnson, Chu, Deutch, Gutierrez, 
Bass, DelBene, Jeffries, Cicilline, Peters.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Jason Herring, FBI Detailee, Subcommittee on Crime, Terrorism, 
Homeland Security, and Investigations; Caroline Lynch, Chief 
Counsel, Subcommittee on Crime, Terrorism, Homeland Security, 
and Investigations; Robert Parmiter, Counsel, Subcommittee on 
Crime, Terrorism, Homeland Security, and Investigations; Ryan 
Breitenbach, Counsel, Subcommittee on Crime, Terrorism, 
Homeland Security, and Investigations; Kelsey Williams, Clerk; 
(Minority) Perry Apelbaum, Staff Director & Chief Counsel; 
Aaron Hiller, Chief Oversight Counsel; Joe Graupensperger, 
Chief Counsel, Subcommittee on Crime, Terrorism, Homeland 
Security, and Investigations; Tiffany Joslyn, Deputy Chief 
Counsel, Subcommittee on Crime, Terrorism, Homeland Security, 
and Investigations; Eric Williams, Detailee, Subcommittee on 
Crime, Terrorism, Homeland Security, and Investigations; and 
Veronica Eligan, Professional Staff Member.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order. And without objection, the Chair is authorized 
to declare recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on the 
oversight of the Federal Bureau of Investigation, and I will 
begin by recognizing myself for an opening statement.
    Welcome, Director Comey, to your second appearance before 
the House Judiciary Committee since your confirmation as the 
seventh Director of the Federal Bureau of Investigation. We are 
happy to have you here with us today. I once again commend your 
distinguished service to our Nation, and I'm confident you will 
continue to serve honorably at the helm of the FBI.
    Today, the FBI continues to face the effects of one of the 
worst national security leaks in our Nation's history by Edward 
Snowden 2 years ago. Over the past year, the House Judiciary 
Committee spearheaded the passage of the USA FREEDOM Act, a 
bipartisan law that ended a controversial national security 
program and provided expanded oversight and transparency of 
America's intelligence gathering. The USA FREEDOM Act ensures 
that Federal law appropriately respects civil liberties while 
providing the necessary tools to preserve our collection 
capabilities and thereby meet our national security 
responsibilities.
    I want to again thank Director Comey and the men and women 
of the FBI for working closely with Members of this Committee 
to ensure passage and enactment of the USA FREEDOM Act.
    Events over the past year in the Middle East have deeply 
violated the world's moral compass with scenes of unimaginable 
brutality at the hands of ISIS. In particular, the appalling 
and indiscriminate targeting of anyone who fails to abide by 
ISIS' stated goal to establish a global caliphate has resulted 
in the shedding of innocent blood by the most revolting 
methods.
    As a radical Islamic terrorist organization, ISIS mandates 
conformity to an ideology which permits no dissent. As 
Americans with a strong history of protecting religious 
liberty, we stand in total opposition to ISIS' decimation of 
Christian populations in the Middle East and to its vicious 
tactics.
    America is not immune to ISIS' propaganda of terror. 
American teenagers have been radicalized in part by ISIS' 
concerted social media efforts promoting the killing of fellow 
Americans, and just last week a like-minded cyber hacker was 
indicted for providing ISIS with information on U.S. service 
members.
    Director Comey, you are at the forefront of protecting our 
country from those who patiently plot to do us harm, and I am 
interested today in hearing more about the FBI's efforts to 
combat ISIS.
    Over 3 years ago, our diplomatic mission to Benghazi, 
Libya, was attacked by terrorists and four Americans, including 
our Ambassador, were killed. As of today, only one subject has 
been apprehended and placed on trial. I am interested in 
hearing more from you about the status of the FBI's 
investigation and efforts to bring to justice other terrorist 
killers who murdered four of our citizens.
    Separately, it was revealed this past year that former 
Secretary of State Hillary Clinton used a private e-mail server 
to conduct her official business while serving as Secretary of 
State. Two inspectors general have already reported that 
classified information was contained within Secretary Clinton's 
private e-mail and have referred the matter to the Justice 
Department.
    While the apparent lack of transparency related to the use 
of a private server to conduct the Nation's diplomatic business 
is troubling, it also raises significant questions concerning 
the security of national secrets and the potential insight that 
such a home-brew setup may afford a foreign intelligence 
service into the day-to-day digital record of a top-level 
government official.
    On the technology front, the issue known as Going Dark has 
been at the top of the FBI's concerns in recent years. 
Encryption technology is exciting and can effectively secure 
private communications when privacy is needed or desired. In 
fact, over 15 years ago, I led congressional efforts to ensure 
strong encryption technology and to ensure that the government 
could not automatically demand a backdoor key to encryption 
technologies.
    This enabled the U.S. encryption market to thrive and 
produce legitimate encryption technologies for legitimate 
actors rather than see the market head completely overseas to 
companies that do not have to comply with basic protections. 
However, it is true that this technology can also be used by 
those who wish to do us harm. Adoption of new communications 
technologies by those intending to harm the American people is 
outpacing law enforcement's technological capability to access 
those communications in legitimate criminal and terrorist 
investigations.
    In light of the Administration's recent announcement that 
it is not currently seeking a legislative solution to its Going 
Dark challenges, I am interested to hear your perspective on 
whether the Administration's newly announced approach to work 
in an ad hoc fashion with communication providers is an 
adequate solution.
    Finally, violent crime appears to be on the rise across the 
country, particularly around our major metropolitan centers. It 
is disconcerting to watch the gains of the past decades unravel 
in an explosion of community violence. We have also witnessed 
several incidents in the past year that, unfortunately, have 
led to increased community tension with law enforcement. This 
tension will hopefully be resolved through improved 
communication, accountability, policing practices, and various 
other initiatives.
    I hope to hear the FBI's perspectives on the reasons for 
the increase in crime and how to ensure that law enforcement 
officers and the citizens they serve can coexist in a safe and 
respectful environment.
    In conclusion, Mr. Director, please know that this 
Committee sincerely appreciates your efforts to keep us safe 
and the heroic actions consistently performed by the men and 
women of the FBI to protect our country. I look forward to 
hearing your answers on all of these important topics today, as 
well as on our other issues of significance to the FBI and our 
Nation.
    At this time, I am pleased to recognize the Ranking Member 
of the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    Good morning, Director Comey. We welcome you for this 
second appearance before the House Judiciary Committee since 
taking office on September the 4th, 2013.
    The FBI's mission is a complex undertaking to protect the 
United States from terrorism, to enforce our criminal laws, and 
to lead the Nation's law enforcement community. And yet, as 
vast as this mission seems, I think nearly all of the 
discussion we will have here today can be distilled into one 
word: Trust. Trust in the executive branch to respect and 
secure our privacy and our civil liberties. Trust in the FBI as 
an institution. Trust in State and local agencies that police 
our communities.
    In many respects, Director Comey, I think we agree on this 
point. For example, you have spoken powerfully about the hard 
truths we must keep in mind when we discuss race and policing, 
and particularly when we discuss the use of force by police 
officers. I am told that you require all new agencies to study 
the FBI's interaction with Dr. Martin Luther King, Jr., and to 
visit his memorial at the Tidal Basin. I'm also advised that 
you keep on your desk a copy of Robert Kennedy's approval of J. 
Edgar Hoover's request to place a wiretap on Dr. King.
    These are powerful reminders of a troubling and not-too-
distant history. It's not difficult to draw a line from that 
era to recent events in Ferguson, Baltimore, New York, and 
Cleveland. And that's why your work to build trust between 
police and our communities is so important.
    Nowhere is that effort more apparent than in your call for 
better data on the use of force by police. Although the FBI is 
the national custodian of crime statistics, that data is 
reported voluntarily and inconsistently. You have been honest 
in your assessment that official statistics in this area are so 
incomplete as to be embarrassing and ridiculous.
    We need a better understanding of what drives police use of 
force, and we cannot study the problem without reliable data. I 
urge you to continue to press your State and local partners for 
consistent and accurate reporting to the National Incident-
Based Reporting System.
    Just as we must rebuild trust in certain State and local 
law enforcement units, we will look to your testimony today to 
reassure us about a number of programs and activities at the 
FBI. Earlier this year, the public noticed a small plane flying 
in a tight pattern directly over the site of unrest in west 
Baltimore. Other reports from other parts of the country, 
including my own district in Detroit, raise questions about the 
presence of similar aircraft.
    The FBI has since confirmed the existence of its aerial 
surveillance program. On June 3, 15 Members of this Committee 
wrote you to ask for more information about this program. Your 
team provided our staff with a briefing soon thereafter. But 
the public still has many questions about aerial surveillance, 
and you have said that there is a great deal of misinformation 
about this program. I would like you to use your testimony and 
presence here today to explain from your perspective how this 
program works and why we should trust the Bureau to operate it.
    Similarly, I think we would benefit from a fuller 
description of encryption and what you've called the Going Dark 
problem. Over the past year, you have called for a 
congressional mandate to give the FBI special access to 
otherwise encrypted data.
    I have a difficult time understanding this proposal. Every 
technical expert who has spoken on this issue has concluded 
that it is technically impossible to provide this access 
without also compromising our security against bad actors. Even 
if it were technically feasible, it would cost our technology 
sector perhaps billions of dollars to implement the scheme and 
perhaps billions more from loss of business overseas where the 
United States Government surveillance programs have already 
taken a toll on the industry.
    And even if it were technically feasible and easy to 
implement, a new rule for United States companies would not 
succeed in keeping bad actors from using unbreakable 
encryption, which is open source, free, and widely available 
from companies based overseas.
    As Chairman Goodlatte argued when we had this debate in 
1999, only by allowing the use of strong encryption, not only 
domestically but internationally as well, can we hope to make 
the Internet a safe and secure environment. I agree with that 
sentiment, and you have made similar public statements, and I 
hope that you can help us to reconcile that view with your call 
for special access.
    And finally, because rigorous oversight is necessary for 
public trust, I hope that you will commit today to full 
compliance with the Inspector General Act. For the past 5 
years, the FBI has resisted the clear mandate of that law. The 
inspector general of the Department of Justice is to have 
timely access to every document he requires to carry out his 
duties.
    Noncompliance has real consequences. This Committee waited 
until February of this year to receive a report about the FBI's 
use of Section 215 orders from 2007 to 2009. The public waited 
until May for the unclassified version. In the middle of a 
national debate on government surveillance, we waited 6 years 
for critical information. This delay is unacceptable.
    I understand that there are other interpretations of the 
law. Congress will soon clarify the matter, likely in 
overwhelmingly bipartisan fashion. But in the meantime, 
Director Comey, I hope that the Bureau will step away from its 
litigating position and give the Office of the Inspector 
General the access it requires and deserves.
    Your job is a complex and demanding one, Director. We 
appreciate you being here today, and I look forward to your 
testimony.
    And I thank the Chairman and yield back.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    Without objection, all other Members' opening statements 
will be made a part of the record.
    We welcome our distinguished witness today. And if you'll 
please rise, we'll begin by swearing you in.
    Do you swear that the testimony that you are about to give 
shall be the truth, the whole truth and nothing but the truth, 
so help you God?
    Director Comey. I do.
    Mr. Goodlatte. Thank you.
    Let the record reflect that the witness has responded in 
the affirmative.
    On September 4, 2013, Director Comey was sworn in as the 
seventh director of the FBI. He began his career as an 
assistant United States attorney for both the Southern District 
of New York and the Eastern District of Virginia. After the 9/
11 terrorist attacks, Director Comey returned to New York to 
become the United States attorney for the Southern District of 
New York. In 2003, he was appointed Deputy Attorney General 
under United States Attorney General John Ashcroft. Director 
Comey is a graduate of the College of William and Mary and the 
University of Chicago Law School.
    We welcome you again today to your second appearance before 
the House Committee. Your written statement will be entered 
into the record in its entirety, and we ask that you summarize 
your testimony in 5 minutes. And with that, we welcome you 
again to the Committee.

 TESTIMONY OF THE HONORABLE JAMES B. COMEY, DIRECTOR, FEDERAL 
                    BUREAU OF INVESTIGATION

    Mr. Comey. Thank you, Chairman Goodlatte, Congressman 
Conyers. It's good to be back before you and the Members of the 
Committee for my second annual oversight hearing. I expect to 
be back for eight more during my 10-year term, which I look 
forward to very much.
    What I thought I would do is just explain to the Committee 
in very short form how we at the FBI think about ourselves and 
a couple of the things that are prominent in our work today. I 
think the FBI can best be described in a single sentence: We 
are a national security and law enforcement organization that 
uses, collects, and shares intelligence in everything that we 
do.
    That sentence captures us in two different ways. First, the 
first half of that sentence, we are a national security and law 
enforcement organization. There is great strength to the 
American people in having our criminal responsibilities and our 
national security responsibilities in the same place.
    Perhaps no better example is there of the strength that's 
gained from that combination than the rule of law as the spine 
of the FBI. It is a great thing, I think, for this country that 
the people responsible for counterintelligence, 
counterterrorism, and the criminal work all have as part of 
their being the rule of law and the Bill of Rights.
    The second half of that sentence, we use, collect, and 
share intelligence in everything that we do, is a description 
of what I think we have always been but what we have tried to 
get so much better at since 9/11. That is being thoughtful 
about what we know, what we need to know, and who needs to know 
what we know so that we can all be more effective in protecting 
this country.
    I want to touch on two topics under our responsibilities. 
Start with national security. The threat posed to us from 
ISIL's crowdsourcing of terrorism using social media is a 
significant feature of our work. It was an especially taxing 
threat the FBI dealt with earlier this summer when all over the 
country, in hundreds of investigations, we were trying to 
evaluate where people are from consuming ISIL's poison to 
acting on it.
    Through the Internet, the so-called Islamic State has been 
pushing a twin-pronged message to troubled souls all over the 
world and all over our country. The first prong is come to the 
so-called caliphate and live a life of glory; and if you can't 
come, the second prong says, kill. Kill where you are. Kill 
anyone. If you can kill people in uniform, military or law 
enforcement, best of all.
    That message has gone out since the summer of 2014 
aggressively and in a very sophisticated way to thousands of 
consumers on Twitter. And Twitter works to sell books or movies 
or magazines. It works to crowdsource terrorism. And so in 
every State we have investigations trying to understand where 
people are on the path from consuming to acting.
    And this is a very different paradigm than the traditional 
Al Qaeda paradigm because this is not about national landmarks 
and sophisticated, long-tail, carefully surveilled events. This 
is about trying to motivate murder anywhere, by anyone. And, 
unfortunately, it's a message that resonates with troubled 
souls seeking meaning.
    And so earlier this summer, especially in May, June, and 
July, we were faced with the prospect of a whole lot of people 
acting out on this inspiration or direction from ISIL, and 
thanks to great work by the men and women of the FBI and our 
partners in State, local, and Federal law enforcement, we 
disrupted a whole lot of efforts to murder innocent people in 
the United States.
    That work, though, continues, and it is made particularly 
difficult by an issue both you and Mr. Conyers touched upon. 
Our mission is to find needles in a nationwide haystack, and we 
have hundreds of investigations aimed at doing that in all 50 
States. But increasingly what ISIL does is move the real live 
ones who might be willing to kill on their behalf off of 
Twitter to a mobile messaging app that is end-to-end encrypted. 
And at that moment, the needle that we may have found becomes 
invisible to us even with court orders, which is how the FBI 
does its business.
    And so that's the challenge we face called Going Dark in 
real living color. We are trying to interdict, trying to stop, 
trying to understand people on the cusp of acts of violence, 
and increasingly a tool that the American people count on us to 
use is less and less effective. I don't know exactly what to do 
about that, frankly, but I think my job, given the 
responsibility I have, is to tell people there's a problem and 
we need to talk about it. And so I look forward to a 
conversation about it with you.
    Our law enforcement responsibilities is the second thing I 
just want to touch very briefly. Obviously, we do public 
corruption work. We protect children. We fight fraud. We do a 
whole lot of work with our partners around the country to 
address violent crime. Something very disturbing is happening 
in this country right now in law enforcement and in violent 
crime.
    I imagine two lines, one being us in law enforcement and 
the other being communities we serve and protect, especially 
communities of color. Those two lines over the last year or so 
have been arcing away from each other, and that continues. Each 
incident that involves police misconduct or perceived 
misconduct bends one line away. Each time an officer is killed 
or attacked in the line of duty bends the other line farther 
away.
    And in the midst of those arcing away from each other, 
maybe because they're arcing away from each other, we are 
seeing a dramatic spike in violent crime, especially homicide, 
in cities all across the country. In communities of color 
especially, especially young men are dying at a rate that 
dwarfs what we've seen in recent history. It's happening all 
over the country, and it's happening all in the last 10 months.
    And so a lot of us in law enforcement are talking and 
trying to understand what is happening in this country, what 
explains the map we see, what explains the calendar. Why is it 
happening all over the country? Why is it happening this year?
    I don't know the answer to that. I, as I said, like a lot 
of people in law enforcement, are struggling with it. We simply 
must focus on this because all lives matter. This is not a 
problem America should drive around. We should stare at it. And 
as we stare at it, we should all work for ways to bend those 
lines back toward each other, because we need each other. We 
need each other to make sure our communities are safe. We have 
achieved in 2014 historically low violent crime in this 
country. We cannot let that slip away from us.
    I am grateful for the hard work of the men and women of the 
FBI on these challenges. I am especially grateful for our 
partners in law enforcement around the country who help us 
address those. As you know, the FBI doesn't have a lot of fancy 
stuff. We have people, and we have great people, thank 
goodness, who are Americans who care deeply about protecting 
all their fellow citizens. I am honored to be in this job where 
I get to watch what they do and help them. And I look forward 
to your questions.
    [The prepared statement of Mr. Comey follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
                               __________
    Mr. Goodlatte. Thank you, Director Comey.
    We'll now proceed under the 5-minute rule with questions 
for the Director, and I'll begin my recognizing myself.
    Since the passage of the USA FREEDOM Act, a law that struck 
a balance between privacy and national security, is the FBI 
experiencing any difficulty in complying with the new law?
    Mr. Comey. We have not, Mr. Chairman. We haven't yet gotten 
to the place where the alternative system for telephone 
metadata has been built, but so far we haven't seen an adverse 
impact.
    Mr. Goodlatte. But you're getting very close to that, I 
think----
    Mr. Comey. Yes, sir.
    Mr. Goodlatte [continuing]. The date when the metadata 
collection will be completely turned off?
    Mr. Comey. Yes. The end of next month, I believe.
    Mr. Goodlatte. Even with a decade's worth of information on 
Iraqi refugees, didn't we still encounter cases of domestic 
terrorism conducted by those admitted as refugees? With 
significantly less information on potential Syrian refugees, 
isn't it true that you can't ensure that the Iraqi experience 
is not going to be replayed?
    Mr. Comey. Thank you, Mr. Chairman.
    Yes, you're correct that we did discover in people who had 
come in as refugees from Iraq a number of people who were of 
serious concern, including two that were charged when we found 
their fingerprints on improvised explosive devices from Iraq. 
And there's no doubt that that was the product of a less-than-
excellent vetting that had been done on Iraqi refugees.
    There's good news and bad news. The good news is we have 
improved dramatically our ability as an interagency, all parts 
of the U.S. Government, to query and check people. The bad news 
is our ability to touch data with respect to people who may 
come from Syria may be limited. That is, if we don't know much 
about somebody, there won't be anything in our database.
    Mr. Goodlatte. In fact, much less than we had access to 
when we were in Iraq----
    Mr. Comey. I think that's fair.
    Mr. Goodlatte [continuing]. And had extensive networking 
and access to information about Iraqi citizens that simply does 
not in any way compare to the lack of information we have today 
about Syrian nationals who are seeking refugee status in the 
United States.
    Mr. Comey. I think that's a fair generality, that the data 
we had available to us from Iraq from a decade of our folks 
being there, encountering people, is richer than the data we 
have from Syria.
    Mr. Goodlatte. The Director of the National Security Agency 
has said that former Secretary of State Clinton's private e-
mail server would be a sought-after target for a foreign 
intelligence agency. Do you also believe that a foreign 
intelligence agency, particularly an adversary's, could benefit 
from acquiring and exploiting sensitive and classified 
information of a top-level U.S. Government official?
    Mr. Comey. Mr. Chairman, I'd respectfully say that's one 
I'm not going to comment on. As you know, the FBI is working on 
a referral given to us by inspectors general in connection with 
former Secretary Clinton's use of a private e-mail server. As 
you also know about the FBI, we don't talk about our 
investigations while we're doing them. This is one I'm 
following very closely and get briefed on regularly. I'm 
confident we have the people and the resources to do it in the 
way I believe we do all our work, which is promptly, 
professionally, and independently. But I don't want to do 
anything that would compromise my ability to do it that way by 
commenting beyond that.
    Mr. Goodlatte. Well, how about answering my generic 
question, not directed at the specifics of that case, but 
rather the question of whether you believe that a foreign 
intelligence agency, particularly an adversary's, could benefit 
from acquiring and exploiting sensitive and classified 
information of a top-level U.S. Government official?
    Mr. Comey. Thank you, Mr. Chairman. I hope you'll 
understand why I don't think it's appropriate for me to answer 
that. I want to preserve my ability to oversee this 
investigation in a way that is both in reality independent and 
fair and is perceived that way.
    I believe the Bureau is three things. We are competent, 
we're independent, and we're honest, and I want to make sure 
the American people have confidence that that's the way we're 
doing our business. And if I start answering questions like 
yours, which is a reasonable question, I worry that I could 
infringe upon that.
    Mr. Goodlatte. You've said that encryption represents the 
Going Dark problem in high definition. Earlier this month you 
testified in front of the Senate Homeland Security and 
Governmental Affairs Committee that the Obama administration 
has decided to no longer seek a legislative remedy to address 
challenges law enforcement faces with encryption and Going 
Dark. What has changed? And do you agree with the concerns that 
I and the Ranking Member, Mr. Conyers, have expressed about 
some of the proposals that had previously been made with regard 
to addressing this problem?
    Mr. Comey. I think what the Administration has decided, Mr. 
Chairman, is that it is not going to seek a legislative remedy 
now so that we can continue the conversations we're having with 
the private sector, with our allies around the world, and with 
State and local law enforcement, who are hugely impacted by 
this, and I think that makes good sense. I don't think we are 
yet to a place where we know exactly so how would we fix this 
legislatively. This is a very hard problem.
    I think you and Mr. Conyers have raised serious questions 
and concerns. I believe this is an incredibly hard problem 
because two sets of values we all care about, safety and 
security on the Internet. I'm a big fan of strong encryption 
for the reasons you said. It helps us fight cybersecurity. It 
helps us protect all that matters most to us personally and as 
a Nation and public safety that we all care about. And those 
two things are colliding with each other.
    There's not an easy answer, but given how important both of 
those values are and what's at stake, I think we have to 
wrestle with it, and we are continuing to do that. We're having 
very good conversations along all the dimensions I just said, 
and we'll continue it, I hope.
    Mr. Goodlatte. I just came from a meeting with Bill Gates 
who indicated that the progress being made in quantum computing 
is dramatic and that computers of that high capability will 
soon be able to crack any kind of encryption that anyone has. 
That I found to be very interesting information. I have both 
good and bad views of that because obviously that can be 
seriously abused and invade the privacy of law-abiding 
citizens, but it also will be a source of solving your problem 
when you encounter encrypted materials by people who are 
suspected enemies of the United States or criminals capable of 
using high technology to protect themselves and evade 
prosecution under the law.
    Do you have any comments or knowledge about the current 
state of quantum computing?
    Mr. Comey. Nothing that would be useful to you. I've read 
about it in the popular press. I only have 8 years left in my 
term. I have a hard time imagining a police officer in New York 
City in a kidnapping case having access to a quantum computer 
any time in the near future when they encounter a device that's 
locked. And so it may be some day that's an answer to the 
challenge, to the conflict of those two sets of values. I don't 
see it anywhere near in the near term.
    Mr. Goodlatte. Thank you.
    I now recognize the Ranking Member for his questions.
    Mr. Conyers. Thank you, Mr. Chairman.
    Welcome again, Director Comey.
    You observed that The Washington Post and The Guardian are 
becoming the lead source of information about violent 
encounters between police and civilians. You called the state 
of FBI statistics on these accounts embarrassing and 
ridiculous. And now that you've had some time to reflect on 
them, do you stand by this comment?
    Mr. Comey. I do, Mr. Conyers. I think it's embarrassing for 
those of us in government who care deeply about these issues, 
especially the use of force by law enforcement, that we can't 
have an informed discussion because we don't have data. People 
have data about who went to a movie last weekend or how many 
books were sold or how many cases of the flu walked into an 
emergency room, and I cannot tell you how many people were shot 
by police in the United States last month, last year, or 
anything about the demographics, and that's a very bad place to 
be.
    Mr. Conyers. Why, sir, does the FBI have trouble collecting 
this information?
    Mr. Comey. I think the big challenge, Mr. Conyers, is that 
it requires cooperation from 18,000 law enforcement 
organizations all around the country, and we are a big, diverse 
country of many different size organizations in the law 
enforcement space, and so we have never all sat together and 
said let's change the way we do this, and I'm optimistic we're 
about to do that.
    Mr. Conyers. You're working on the problem----
    Mr. Comey. Very hard.
    Mr. Conyers [continuing]. And you think that it's coming 
together.
    Mr. Comey. Very hard. And the good news is chiefs and 
sheriffs get it and want to be in a position we as a country 
can have informed conversations. And so what I have been asking 
for resonates with them. I'm going to speak to them again at a 
huge conference in Chicago next week. And I'm optimistic that 
we can get to a much better place. It's going to take us a few 
years, but I think we can get to a much better place.
    Mr. Conyers. I hope so. Your written testimony takes a 
rather dim view of the so-called Going Dark problem. You want 
private companies to understand the public safety and national 
security risks that result from malicious factors' use of their 
encrypted products and services. In the past you have balanced 
comments like these with an honest assessment of the benefits 
of strong encryption. I want you to take some time to do that 
here. Why is encryption important to the Internet economy, to 
cybersecurity, and in many cases to our personal security?
    Mr. Comey. Encryption is vital to our personal security 
because all of our lives are now online. I like people locking 
their cars when they go into a store. I like people to lock 
their homes so that people can't break in and steal what 
matters to them. Now what matters to us as people and as 
companies and as a country are online, and so it ought to be 
secured in a way so people can't steal our innovation, our 
identities, information about our children. So encryption is a 
very good thing, and the FBI has long said that.
    The challenge we face is that we never lived in a world 
with locks that couldn't be opened on a judge's order, and so 
now we face that world where all of our lives will be covered 
by strong encryption and so a judge's orders under the Fourth 
Amendment will be unable to be complied with, and there are 
significant costs to that. That's what I meant by the conflict 
of the values, public safety and security on the Internet, and 
that's what makes it such a really hard problem.
    Mr. Conyers. Thank you.
    Over the summer we received reports that a single engine 
Cessna operated by the FBI and mounted with surveillance 
equipment had flown multiple times over metro Detroit, 
including two lengthy flights over Dearborn where many citizens 
feel reason to distrust the FBI because of their religious or 
ethnic background. You've been forthcoming to my staff about 
some of the details of this program. Can you give the public a 
similar overview here?
    Mr. Comey. Sure. I'd be happy to, Mr. Conyers.
    When we investigate criminals or spies or terrorists, a key 
tool is surveillance, to follow them. We follow them a lot in 
cars. We follow them on foot. There are plenty of circumstances 
where both of those options don't work real well, and so since 
the Wright brothers, we have used airplanes to follow people in 
our investigations. If a spy is going out to meet somebody and 
it's an area where we can't park cars, we'll sometimes try and 
get a small plane up to be able to get eyes on that meet with 
their contact.
    And so it's a feature--and I hope this doesn't shock the 
American people, I think I should be in trouble with them if 
we're not doing this--we use planes in our predicated 
investigations to conduct surveillance of people who are under 
investigation. We do not use planes for mass surveillance.
    And so the good folks in Michigan who saw a plane in the 
air, I think a lot of them had a chance to meet with my SAC out 
there and have him explain, look, this is what we do in 
criminal cases. It should make sense if you understand how we 
use it in individual cases.
    So we have a small number of airplanes--I actually wish we 
had more--that we use to follow people in places where it's 
hard to follow them on foot or in a car.
    Mr. Conyers. Thank you for your response to my questions.
    Mr. Goodlatte. Thank you.
    The Chair recognizes the gentleman from Virginia, Mr. 
Forbes, for 5 minutes.
    Mr. Forbes. Mr. Chairman, thank you.
    Director Comey, thank you, not just for being here, but for 
your service. I also want to thank all of your staff. I know 
the dedication they put into serving this country, and we 
appreciate them being here.
    If my friend Steve Chabot were here, he would also commend 
you for your selection of William and Mary as an undergraduate. 
And I will tell you that if we couldn't convince you to go to 
the University of Virginia Law School, Chicago was probably a 
good second choice.
    But I have a question. As I listened to the Ranking Member 
today talk about trust, and he talked about the symbols that 
you have on your desk regarding police brutality and efforts by 
law enforcement, but you mentioned it was important to have 
reality and perception, both of those, when you're looking to 
that trust.
    Tell me the symbols if you would, because what he raised 
was important, but tell me the symbols on your desk or in your 
office that would give me comfort in knowing that there was 
also a perception that you were equally looking at organized 
groups that were coming into areas like Ferguson and Baltimore 
to foment unrest, especially groups that were outside those 
communities and especially those groups who might be impacting 
violence against law enforcement. Because as you mentioned, 
there are two curves, not just one curve.
    Mr. Comey. Thank you, Mr. Forbes.
    First of all, to make sure the record is clear, what I have 
on my desk to me is a message of the importance of restraint 
and oversight within government. And so it's just--it's a 
wiretap order that relates to Martin Luther King. It's not 
about police misconduct, which is something--obviously, police 
misconduct is something we take very seriously.
    I've devoted my whole life to law enforcement. I come from 
a law enforcement family. One of the things that's prominent in 
my office is a picture of my grandfather in 1929 escorting a 
dangerous felon to jail. My grandfather was a detective who 
rose up to lead a significant police department. And so I care 
an awful lot about making sure law enforcement has the 
confidence of the community, that we conduct ourselves well, 
but that we protect law enforcement from attacks.
    One of the things in my office that reminds me of this is 
my phone. Whenever a police officer is killed in the line of 
duty, I call the chief or sheriff of that slain officer to 
offer the condolences of the FBI. I make far too many phone 
calls.
    And so we care about both, making sure law enforcement acts 
well and that we investigate people who would harm law 
enforcement, whether it's groups, sophisticated groups, or 
individual actors. It's a feature of all the work that we do.
    Mr. Forbes. And, Director, I would ask that at some point 
in time you could submit for the record the data you have on 
these outside groups that are coming into these communities 
when we have situations like this who might be stirring up 
unrest and especially activity against law enforcement; and 
also any data you have regarding the impact or even the numbers 
of gang members that might be currently being released by the 
government who might be here illegally, because when we ask 
those questions of Homeland Security, they can't give us any of 
that data.
    The second question I'd have for you, as you know, the OPM 
breach impacted over 22 million current, former, and 
prospective Federal employees and contractors. Considering 
these individuals use personal e-mail accounts for their own 
personal communication and store private information relating 
to financial transactions, their children, and health care, do 
you think the OPM breach has made these individuals more 
vulnerable to social engineering tactics used by hackers? And 
in what ways could encryption enhance the security of personal 
information of those who have had their information compromised 
during the OPM breach?
    Mr. Comey. I think the OPM breach, as I've said in other 
settings, is disastrous because it's a gold mine for foreign 
intelligence services that would allow them to use that 
material to conduct very sophisticated socially engineered 
spear phishing attacks, for example, to penetrate people's 
systems.
    I think encryption is very important to protect people's 
information. I don't think encryption will directly blunt that 
particular vector because it would allow a nation state to send 
me an e-mail from my sister about my nephew with an attachment, 
and it's highly likely I will open that e-mail and click on 
that attachment. So I actually see them as two separate 
problems, both serious problems, though.
    Mr. Forbes. Good. Thank you, Mr. Director.
    And with that, Mr. Chairman, I yield back.
    Mr. Goodlatte. That Chair thanks the gentleman and 
recognizes the gentlewoman from California, Ms. Lofgren, for 5 
minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Director Comey, for being here again.
    The National Instant Background Check System was created as 
a result of the Brady Act of 1993, before I was in the 
Congress, and it requires that gun sales by licensed gun 
dealers are subject to background checks but allows 
transactions to proceed after 3 days unless the FBI stops the 
transaction based on criteria such as felony record or domestic 
violence, misdemeanor convictions, and the like.
    Now, under the rule, even if the FBI has not completed its 
check, the dealer has the discretion to complete the sale after 
3 days have passed and they haven't received a red light from 
the FBI.
    Now, it's my understanding from news reports that the man 
who shot and killed nine people at the Emanuel African 
Methodist Episcopal Church in Charleston, South Carolina, on 
June 17 was sold the gun by a dealer who waited 5 days but did 
not receive a response from the NICS examiner. Now, the shooter 
had a drug possession conviction that, if it had been found by 
the NICS examiner, would have prevented the gun sale. Due in 
part to an error in the shooter's arrest records and also the 
large caseload and time constraints placed on the NICS 
examiner, the gun dealer didn't receive the red light that 
would have prevented this gun sale and possibly prevented this 
massacre.
    So I have a couple of questions. First, what can be done to 
make sure that we have a timely response and we have the data 
available to prevent the sale of guns to those who are not 
eligible to buy them, number one? Number two, should the law 
require a green light from the FBI to prevent a firearms 
transfer to those prohibited by law from buying them instead of 
the red light system that we have now? And do you think that we 
should examine the amount of time that we give for background 
checks beyond 3 days if we don't go to an affirmative green 
light system?
    Mr. Comey. Thank you, Ms. Lofgren.
    With respect to the case of Dylann Roof, as you said, 
dealers must wait 3 days, business days, to give the FBI an 
opportunity to conduct a background check. In that circumstance 
the gun dealer was notified it was in delayed pending status; 
and at the end of 3 days, if it's still in delayed pending, the 
gun dealer has the discretion to transfer or to wait. Some 
large gun dealers wait. This gun dealer transferred, which was 
consistent with the law. And there were a number of errors in 
the processing of his that allowed his drug possession arrest 
to be missed, and so the gun was transferred.
    We have stared very, very hard at that and have tried to 
figure out what we can learn from that. There were some easy 
fixes to our processes, but we are looking at bigger fixes to 
see whether we can surge resources, whether we can add 
innovation to make our processing faster.
    But the other key piece is going to be we must get better 
records from our State and local partners so that when our 
examiners query a database they have the disposition reported 
and they don't have to go tracking it down. We're having lots 
of productive conversations with State and local law 
enforcement who see in the wake of the pain of that tragedy the 
importance of giving us those records. So that's what we're 
doing to try and improve our processing.
    The policy questions are really not for the FBI. We comply 
with the law as it stands today, which is we have 3 days to get 
it done. We'll do our best to get it done in 3 days. If 
Congress were to change that, we would comply, obviously.
    Ms. Lofgren. All right. Getting back to encryption, I 
understand the concerns that you've used raised here today and 
in the past, but the experts really say trying to get a back 
door is a mistake. I mean, all the way from the inventors of 
public key encryption, people like Whit Diffie, who did a very 
excellent report from MIT, if you have the back door the 
hackers will get it and China will get it and we will be less 
safe.
    So that leads me to a question about the use of encryption 
by the FBI. Are you encrypting all of your data about your FBI 
agents and your personnel and your payroll and all of your 
systems?
    Mr. Comey. We do not encrypt all of our data. We use 
encryption on a significant amount of our data. I'd have to 
follow up with you to give you the particulars on maybe a 
percentage breakdown. It's an important feature of our work.
    Ms. Lofgren. I'd like to follow up with that because I was 
stunned that the Office of Personnel did not have important 
data that encrypted. The Federal Government should protect 
itself by encrypting this data. We know that we're being hacked 
constantly by state actors and enemies of our country, and I'm 
sure that they would love to get data about the FBI as well, 
and I look forward to hearing greater details on that.
    And I yield back, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentlewoman and 
recognizes the gentleman from California, Mr. Issa, for 5 
minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    I've got so many questions and so little time, so I will 
try to touch on each of them, and bear with me. On Stingrays 
I'm going to ask you to tell us now or for the record how you 
control the access to these products when they're not being 
used, how you control them when they are being used, not just 
at the FBI, but to the extent that you're cooperating with non-
Federal agencies around the country that have these devices.
    And specifically I'm very concerned that since they're 
being used at times without warrant, almost mostly, and there 
are at least some allegations they've been used to track 
policemen's girlfriends' or wives' activities and so on, that 
they are too powerful a tool not to have a series of controls. 
And I'd like to--again, some of this you can answer for the 
record--I think on that I'd like to have a full understanding 
of Federal policy and controls.
    In the case of encryption, I'm only going to ask you, it 
will be a long answer, provide for the record, any and all 
studies you have to show the value of encryption and the value 
of your access or ability to not go dark. And if it's 
classified, I'll look at it in a classified session, but I'd 
like to fully understand the value and the studies related to 
that general direction of the Administration.
    But I'd like to take up for today more a question on some 
historic pieces. A few offices away they're dealing with 
Secretary Clinton, so I won't ask about those today. I think 
that's certainly an ongoing investigation as to her use of 
private e-mail for transmitting what turns out to be sensitive 
information.
    But in the case of late 2011, well before your tenure, 
Solyndra went bankrupt after accepting half a billion dollars 
in taxpayers' money. At that time we began an investigation in 
an adjacent Committee, the Oversight Committee, and we were 
told by the DOE inspector general that he could not talk to us 
because the FBI at that time had an ongoing investigation.
    It's now 4 years later, and the Department, the IG did 
release information, but we have not received any indication 
from the FBI. So today I'd like to ask you who at the FBI made 
decisions not to bring any charges against Solyndra executives 
and what the basis was to find no fault in that loss of $500 
million, and particularly since there was evidence provided 
publicly by our Committee that there were emergency efforts to 
get them additional money to try to have their bankruptcy 
delayed. And that was done by Federal employees, including a 
gentleman named Jonathan Silver.
    You might remember that in May in 2013, the President stood 
beside the Attorney General and declared that there would be 
serious investigation by DOJ and FBI into the political 
targeting done by the IRS. Months later the President declared 
there wasn't a smidgeon of corruption related to the IRS.
    Director, you know that, in fact, there was targeting. The 
evidence is convincing. Where do you stand on bringing 
accountability to those involved at all levels to targeting 
conservatives and pro-Israel groups by the IRS, including but 
not limited to Lois Lerner?
    Mr. Comey. Thank you, Congressman.
    With respect to the first two, the Stingrays and the 
encryption, we'll get you information for the record.
    With respect to Solyndra, first of all, just to clarify 
something, the FBI doesn't make decisions to prosecute. We 
investigate, bring the evidence to prosecution.
    Mr. Issa. And I appreciate that, but there is either a 
decision to refer for prosecution or not. And to the extent 
that there was one, I would like the evidence that it was 
referred but not prosecuted. To the extent that there was a 
decision not to refer one or more, that would be helpful. I 
appreciate that the other part of Justice handles the other 
part, and we will have the Attorney General here shortly.
    Mr. Comey. Got you. We worked the Solyndra matter, we, the 
FBI, very, very hard and had it reviewed by two different U.S. 
attorney's offices, one in California, one in New York, who 
both made the same decision, that there was insufficient 
evidence to bring prosecutions. I'm probably limited in what I 
could say about the details of it here because it was a grand 
jury investigation, but that's the upshot of it. I had a lot of 
folks worked it very, very hard. One U.S. attorney's office 
looked it. I asked that it be brought to a second U.S. 
attorney's office, my alma mater, the Southern District of New 
York. They took a look at it and decided there was insufficient 
basis to prosecute criminally. And so that's where the matter 
stands.
    With respect to the IRS investigation, I think as I sit 
here it's still pending, and so I am not able to talk about it 
in any way because it's still a pending investigation.
    Mr. Issa. Mr. Chairman, I just want to close with a very 
short comment. It was 2010 when we became aware that the IRS 
was targeting conservatives. It's now 2015, almost 2016. I 
really would appreciate if the FBI would come up with a time 
line that says an investigation is not ongoing and aggressively 
pursued if a certain period of time passes and nothing has 
happened. I would only ask that 5 years begin to become an 
amount of time in which the FBI can say: We can't say with a 
straight face it's ongoing if it's 5 years later and nothing 
has happened.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. Thank you.
    The Chair recognizes the gentleman from Tennessee, Mr. 
Cohen, for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair.
    First, I want to welcome you. I'm a big fan of yours. But 
at the same time I would like to ask you a question. I 
understand you keep a copy of the FBI's request to wiretap Dr. 
Martin Luther King, Jr., on your desk as a reminder of the 
FBI's capacity to do wrong. Is that correct?
    Mr. Comey. That's correct.
    Mr. Cohen. I commend you for that.
    That occurred during J. Edgar Hoover's tenure as Director. 
As you know, J. Edgar Hoover did some awful, terrible things in 
his life and as FBI Director. He started the COINTELPRO. I 
might be mispronouncing that. How do you pronounce that?
    Mr. Comey. I think you got it, COINTELPRO.
    Mr. Cohen. COINTELPRO program, which harassed civil rights 
workers, SNCC people, SCLC people, Dr. King in particular, 
others, political activists and homosexuals. He was abusive. He 
was the opposite of justice. His efforts to silence Dr. King 
and out homosexuals working for the Federal Government were 
deplorable and a stain on our Nation's history and on the FBI.
    It's been reported that at one point he even had a letter 
sent to Dr. King threatening to expose all kinds of private 
information collected surreptitiously. The letter appeared to 
suggest that Dr. King should kill himself to save himself from 
embarrassment. ``King, there is only one thing left for you to 
do. You know what it is. You have just 34 days in which to do 
it. You are done. There is but one way out for you. You better 
take it before your filthy, abnormal, fraudulent self is bared 
to the nation.'' This was the head of FBI.
    His treatment of homosexuals was no better. He called them 
sex deviants. He ordered the FBI to undertake extraordinary 
efforts to identify everyone in the Bureau who was even 
suspected of being homosexual in the Federal Government.
    There's a documentary been done on this, it's on Yahoo.com, 
by Michael Isikoff called ``Uniquely Nasty.'' I encourage you 
to watch it. I watched it and was shocked. It premiered at the 
Newseum. It's sickening what the FBI did.
    In 1951, Hoover issued a memo to top FBI officials saying 
each supervisor will be held personally responsible to 
underline in green pencil the names of individuals who are 
alleged to be sex deviants. This was discovered through a FOIA 
effort 2 years ago. The FBI eventually collected more than 
360,000 files on gays and lesbians.
    It's reported in 1952 he outed a young campaign aide, a 
Vandenberg, Jr., and went on a war on him. And Senator 
Vandenberg, a Republican, eventually committed suicide in the 
Senate office because of what they brought out about his son 
and what they were doing to destroy him.
    J. Edgar Hoover was a man that doesn't reflect the good 
people of the FBI or reflect what you and the FBI are trying to 
do today. The FBI's own Web site declared the COINTELPRO 
program, as rightly criticized by Congress and the American 
people, for breaching First Amendment rights and other reasons, 
yet his name continues to adorn the FBI building.
    Would you agree that his name is not appropriate as a 
reflection of what the fine people at the FBI today try to do 
to bring about justice in our country?
    Mr. Comey. I'm sorry, Hoover's name?
    Mr. Cohen. Yes, sir.
    Mr. Comey. I am not following the question.
    Mr. Cohen. I'm saying does it not reflect the qualities 
that the FBI individuals and the FBI today have in pursuing 
justice and being fair and not using tactics to attack 
minorities in this country?
    Mr. Comey. I see. Thank you. I'm sorry. The FBI today is 
vastly different than it was under its first Director in some 
of the ways you mentioned and in lots other ways. I keep that 
under the glass of my desk, not to dump on Hoover--I never knew 
the man--but to make sure people understand the danger in 
becoming--in falling in love with your own view of things and 
the danger in the absence of constraint and oversight.
    I am somebody who believes people should be very skeptical 
of government power. I'm a nice person. I suppose you should 
trust me, but you should oversee me, and I should be checked, 
and I should be balanced. That's the way you constrain power. 
It's there to remind me.
    Mr. Cohen. Yes, sir. And I agree and I appreciate that, but 
do you agree that his name is not reflective of the what the 
FBI stands for and what the FBI agents of today believe in and 
do?
    Mr. Comey. I think that's fair if you're focusing on--I 
mean, Hoover did a lot of good things for law enforcement in 
the United States, did a lot of things that, through the lens 
of history, we reject as improper, and so you--I'm no 
historian, but I would imagine a historian would say you've got 
to take the total measure of the person to figure out what's 
bad and what's good. I'm just not equipped to do that.
    Mr. Cohen. Thank you, sir. I would like to see his name 
taken off the building, and I have bill. Representative Burton 
had it with Chris Shays in the past, and I'm going to 
reintroduce that bill, but I was hoping, as I mentioned to you 
the last time, that when we have a new building some time in 
the future, it's named for somebody like you.
    Mr. Comey. Well, I appreciate that. I hope it's not.
    Mr. Cohen. Or Congressman Edwards or Attorney General 
Kennedy.
    And I yield back the balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    Director Comey, thanks for coming to testify, and I just 
would comment that I appreciate your response. So when you use 
the reference ``the lens of history,'' there is a different set 
of values that applies today than applied back in those days. 
But I'm looking at our values today, and I'm watching as there 
is a fairly strong push here for sentencing reform in the 
United States. And I've watched as the President or the 
Administration, at least, has directed that thousands be 
released onto the streets before they serve their terms and 
that we've seen that some of them have been charged with 
homicide and found guilty of homicide. I think that number is 
around 121 or so, but I thought I saw the number 36,007 felons 
released and then a subsequent number.
    I'm actually blurred by the parade of releases that we've 
seen, and now I see it appears to be a group of legislators 
that believe we can save us some tax dollars by releasing more 
onto the streets.
    Are you aware of any studies that would help us quantify 
the impact of these releases in terms of either prospective 
crimes that are likely to be committed or perhaps even 
quantifying it in terms of the dollar value as that's suffered 
in great huge whopping chunks by crime victims?
    Mr. Comey. I'm not aware of any studies on that. It's not 
that I would be. That's sort of a policy question, but I'm not 
aware of any.
    Mr. King. They're very hard to find. I've searched a long 
ways back. I'm only going from memory. It occurs to me that in 
1992 there was a Justice Department study that did quantify 
numerically the cost of crime, but you have any studies that 
show statistically whether there would be more crime or less 
crime that would take place because of the releases, the early 
releases?
    Mr. Comey. I'm not aware of any studies on that.
    Mr. King. What would be your professional estimate? I don't 
need a number. Would we have more crime or less crime?
    Mr. Comey. Well, I know we face, as a country, a 
significant challenge with recidivism, a high re-offend rate 
among people who are released, and my whole career is dedicated 
to the proposition that law enforcement contributes to a drop 
in crime. It's certainly not entirely responsible for the 
historic drop in crime we've seen over in my lifetime, but it's 
a big part of it, and so that's the way I think about it.
    Mr. King. Mandatory sentencing statistically shows to have 
had a positive impact on reducing the crime in the streets of 
America?
    Mr. Comey. I think so. Mandatory minimums have been an 
important part of my work as a prosecutor. Reasonable people 
can discuss whether it should be at this level or this level, 
but some mandatory sentence, some fixed prospect of punishment 
is very, very valuable in incapacitating people and in 
developing cooperators.
    Mr. King. And some time back I sat down with a very 
impressive chief of police of one of our major cities who 
remarked to me about the high, the very high homicide rate in 
the inner city of his city, and his response was that the 
Black-on-Black homicide rate in that city was roughly 98 
percent of the homicides that took place.
    I don't know that we discuss these kind of statistics, and 
I'd be hopeful that we could find a way to do this and 
alleviate this situation that we have. I'd just say we've done 
into a void on this for a politically correct reason, but are 
you aware of any data that would reflect what I represented to 
you?
    Mr. Comey. I think there's a lot of data collected by 
criminologists and others on the demographic component--excuse 
me, the demographics of homicide victims and perpetrators. I 
can't cite it to you off the top of my head, but I know there 
is smart people that have done that work.
    Mr. King. And that 98 percent number, that wouldn't be 
shocking to you if that were proven out to be true by a 
legitimate study?
    Mr. Comey. I don't think it would shock me in particular 
neighborhoods that are heavily concentrated with people of a 
certain demographic background, but I don't know the number off 
the top of my head.
    Mr. King. Yes, thank you. Is there an investigation of 
Planned Parenthood currently taking place in the FBI?
    Mr. Comey. I know, Congressman, as I sit here, I'm not able 
to answer that question because I don't know enough. I know 
there's been letters written to the Department of Justice about 
it. I'll have to get back to you on that one because I don't 
know the status of matters within the FBI on that, sitting here 
this morning.
    Mr. King. Has anyone from the Administration, to your 
knowledge, ever sought to influence you or any of your 
subordinates on whether or not to investigate a crime?
    Mr. Comey. Never.
    Mr. King. And specifically not Planned Parenthood either 
would be included in that?
    Mr. Comey. That would be included.
    Mr. King. I thank you. That would be consistent with your 
competent, independent, and honest characteristics of the FBI. 
I'd just pose this question that--let me quickly go another 
way. USA FREEDOM Act, you're implementing it now, and do you 
have access to more or less information than you had before the 
USA FREEDOM Act was passed?
    Mr. Comey. It really hasn't changed because we're still 
under the old telephone metadata system. As I said to the 
Chairman, I think the new one kicks in at the end of November, 
so currently our world is unchanged.
    Mr. King. Okay. Do you expect more or less?
    Mr. Comey. I expect more, actually.
    Mr. King. That would be interesting to follow up on if I 
had another minute, but I will yield back and thank the 
Chairman.
    Mr. Goodlatte. The gentleman does not have another minute.
    But the Chair will recognize the gentlewoman from 
California, Ms. Chu for 5 minutes.
    Ms. Chu. Director Comey, I want to discuss with you a 
series of very troubling Federal investigations against Chinese 
American scientists, who are treated as spies, have their lives 
turned upside down, only to have all the charges dropped.
    Most recently, we have a case of Dr. Xi Xiaoxing, an 
American citizen and well respected professor who was a chair 
of the Physics Department at Temple University.
    He led a normal and peaceful life as a scientist, 
professor, and researcher with his two daughters and a wife in 
a quiet Pennsylvania neighborhood. He had no criminal record, 
no history of violence, just an average American in academia. 
But one day, at the break of dawn, about a dozen armed FBI 
agents stormed into his house with their guns drawn. He was 
handcuffed in his own home, and his two young daughters and 
wife in pajamas and directed outside of the house at gunpoint. 
The stated charge, wire fraud. However, in the interrogation, 
it was clear he was being accused of being a spy for China.
    Since then, his life has been turned upside down. He lost 
his title as chair of the Physics Department. His reputation 
was irreparably damaged. His wife endured psychological and 
emotional trauma, as does his own whole family and himself, of 
course. And after all of this, the charges against Dr. Xi were 
dropped.
    My understanding of cases of wire fraud is that generally 
people aren't even handcuffed, let alone arrested or paraded in 
font of their family or neighborhood as criminals at gunpoint. 
Rather, they've been given an opportunity to self-surrender, 
and if someone is being investigated for wire fraud, they are 
usually informed about such an investigation in a target 
letter.
    But we know that Professor Xi is not alone. Sherry Chen was 
also recently arrested, a U.S. citizen, an employee of the 
National Weather Service in Ohio. She was arrested at her place 
of work, led in handcuffs past her coworkers to a Federal 
courthouse 40 miles away, where she was told she faced 25 years 
in prison and a million dollars in fines. Several months later, 
all the charges were dropped without any explanation.
    This is reminiscent, of course, of Dr. Wen Ho Lee another 
U.S. citizen whose life was ruined when he was accused of being 
a spy for China, only to have 58 of the 59 charges dropped.
    Let's not forget that during World War II, 120,000 Japanese 
Americans lost everything they had and were imprisoned in 
desolate camps because they were accused of being spies for 
Japan. Three-quarters of them were U.S. citizens. Seventy years 
later, not a single case of espionage was proven. I'm 
particularly concerned about this because there is a stereotype 
that Asian Americans are perpetual foreigners, no matter how 
long they've lived in this country.
    So my question to you is, is this common practice to have a 
dozen armed FBI agents arrest someone for wire fraud, someone 
who is not a flight risk and poses no harm to law enforcement, 
or is there a presumption of guilt went it comes to Chinese 
Americans because they are viewed as spies for China?
    Mr. Comey. Thank you, Congresswoman.
    At the outset, the challenge--I'm going to answer. The 
challenge for me in answering is I can't talk about the facts 
of something that is of an investigation, including ones that 
are pending.
    I guess I can say this. First of all, we operate with no 
presumption that anyone is guilty or any stereotype about any 
particular person. We are a fact-based organization. We are 
required to gather facts and then, through a prosecutor, 
present them to a judge to make a showing of probable cause 
before we can get a warrant to arrest anybody.
    A whole lot of people in this country are arrested on wire 
fraud charges. I've been involved in many cases where people 
were handcuffed and arrested because wire fraud is a very 
serious felony. The particulars of the case I can't talk about 
it, but I would not connect the dots in the manner that you 
have, and that's probably all I can say about individual 
matters.
    Ms. Chu. Well, we understand that the threat of economic 
espionage is real, and we do not take it lightly. However, we 
want to make sure that in all cases, there is due process and 
that otherwise innocent Americans do not become suspicious 
simply because the person taking those actions have an ethnic 
surname.
    Yet in the case of Professor Xi, his investigation came out 
of the blue. He had no idea he was being investigated, 
primarily because he did nothing wrong, as evidenced by the 
dropped charges.
    Do you know how many Chinese Americans are being surveyed?
    Mr. Comey. I do not.
    Ms. Chu. Well, I will personally follow up with you on this 
issue to figure out what is happening in cases like Professor 
Xi's and how we can make sure that no other American, 
regardless of their origin or background, endures this kind of 
egregious humiliation and shame.
    And, with that, I yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman and 
recognizes the gentleman from Texas, Mr. Gohmert, for 5 
minutes.
    Mr. Gohmert. Well, Director Comey, thank you for being 
here. I don't think I ever told you, but back in July-August 
timeframe of 2007, I was talking with a powerful Democratic 
Senator, and we agreed that you had a great reputation for 
justice, honorable man that would potentially be a good 
Attorney General. It ended up being Mukasey, but you were 
discussed very favorably by both sides of the aisle, people 
unlikely to be talking, but we appreciate your work.
    I want to touch on something my friend Steve King brought 
up. I know there's a lot of talk about how we need to have 
reform and people being released from prison, but as someone 
who has worked with the system, you prosecuted, I prosecuted, 
I've been a judge, I've been court-appointed to defend, and 
isn't it true that some people that actually plead to 
nonviolent offenses do so as part of a plea agreement where the 
prosecutor drops a gun charge or some charge of violence in 
order to get a plea in the case and a lesser sentence, haven't 
you seen that happen?
    Mr. Comey. I've seen that happen.
    Mr. Gohmert. Yes. And so that's why for someone like me, 
who's a former judge, who saw those kind of plea agreements 
take place, even though I was in the State side, it's shocking 
to see people come from the outside and say this wasn't a fair 
sentence without really considering what could have been 
prosecuted, what could have been pursued, and what was, you 
know, a transaction or an agreement between a prosecutor and 
defense attorney that the judge considered all the 
circumstances and came down on the side of the agreement.
    Now, I want to touch on something else you had said about 
with Iraq refugees, you had a database, apparently, of 
fingerprints from IEDs, evidence that had been obtained from 
Iraq. Did I understand that correctly?
    Mr. Comey. Yes, sir.
    Mr. Gohmert. Now, with regard to the masses of Syrian 
refugees, I'm not aware of a lot of IEDs evidence we've gotten 
from which you could get fingerprints. Is there such a 
database?
    Mr. Comey. I think that's right. There may be some and a 
variety of other intelligence sources that may help us try and 
understand who people are, but the point I was trying to make 
is we had a whole lot more information about Iraq because our 
soldiers had been there.
    Mr. Gohmert. Right.
    Mr. Comey. Run into people and collected information.
    Mr. Gohmert. Well, and that goes to a concern of mine. I'm 
not the biggest fan of the U.N., but they have data pulled from 
their Web site this morning that says--starting off at more 
than 43 million people worldwide are now forcibly displaced as 
a result of a conflict and persecution, and it goes on to say 
that children constitute about 41 percent of the world's 
refugees, and about half of all refugees are women.
    So it was very disturbing to pull this from the U.N. Web 
site in September that says of the 381,412 arrivals that came 
across the Mediterranean sea just this year, up to September, 
that 15 percent were children, 13 percent were women, and 72 
percent were men, and then when you take that along with our 
DNI James Clapper saying that this provides a prime opportunity 
for Islamic State groups to attack Western targets--he said, 
``It's a disaster of biblical proportions''--and then you take 
statements that have been made by ISIS leaders themselves that 
they have been able to place more than 4,000 warriors in with 
the refugees, this inordinate number of men, has that spiked 
concern in the FBI, along with what you've testified before 
about ISIS having people in every State?
    Mr. Comey. Yes, sir. It's a risk that we are focused on and 
trying to do everything we can to mitigate.
    Mr. Gohmert. But without a good fingerprint database, 
without good identification, I mean, how can you be sure that 
anyone is who they say they are? You don't have fingerprints to 
go against it. They've got documents that say they're one--I've 
been there on the border when I've watched people exchange 
identification information and decide to use the other ones. Is 
there a good way to avoid that that the FBI is able to use?
    Mr. Comey. The only thing we can query is information that 
we have, and so if we have no information on someone, they've 
never crossed our radar screen, never been a ripple in the 
pond, there will be no record of them there, and so it will be 
challenging.
    Mr. Gohmert. Thank you. My time is expired.
    I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Illinois, Mr. Gutierrez, for 5 
minutes.
    Mr. Gutierrez. Thank you, Mr. Chairman.
    And welcome, Director.
    I'm just going to ask you to have a conversation about one 
area, and that's about guns. In my hometown, there could be 40, 
50 shootings in a weekend. That's about a whole classroom of 
kids any weekend. And so I know that you have a relationship 
with making sure that we check who can and cannot purchase guns 
here at the FBI. And it just seems that whatever we do in 
Chicago, guns are just--well, first, our laws have been 
weakened because there have been challenges to them, so we used 
to have pretty strong--when I first got elected in 1986 to the 
Chicago City Council, they give you a badge in Chicago, and you 
can get a gun. I opted not to take the badge or the gun. I 
figured the Chicago police could do both of those things, wear 
the badge and carry the gun for me and for the rest of the 
people, and I think the people of the city of Chicago were well 
served by me making that decision.
    But, look, so here we have like a majority in the Congress 
of the United States that's really unwilling to take up the 
challenge that guns and firearms are--and they're coming from 
Indiana, and they're coming from Mississippi, and they're 
coming from all over, and they wind up in Chicago. So I guess, 
if you could just tell us, what are you ideas on how do I and 
people at a local level or as a Member of Congress, how do I 
help curb gun violence? What things can we do to help curb, 
absent legislation?
    Mr. Comey. Well, the FBI's business is not policymaking; 
it's enforcement of the law. And so we spend a lot of time 
trying to reduce gun violence through aggressive enforcement. 
It's a crime for a felon to possess a gun in this country; for 
a drug addict; for a drug dealer; for someone who is convicted 
of a domestic violence misdemeanor to do it; to use it in crime 
of violence. And so I've devoted a lot of my career as a 
prosecutor--and the FBI does investigating--to impose cost to 
change behavior so the bad guys don't have a gun on their 
waistband. And that means more fistfights, maybe more 
stabbings, but fewer shootings because the challenge we face in 
a lot of cities is the bad guys think it's just another a piece 
of clothing. So they think about as much about the gun as they 
do about their socks, and that leads to a whole lot more 
shooting based on people bumping into each other, frankly.
    And so our mission is to try and send a strong message of 
deterrence that you ought not to have that gun, you ought to 
think a lot more about the gun than your socks, and that will 
make that corner safer. But it requires tremendous effort by 
the law enforcement community. We're doing a lot of that, 
though, including in Chicago, where your characterization is 
exactly right.
    Mr. Gutierrez. Could you tell us, the Members, what kinds 
of things are we doing in Chicago via your agency and the 
Federal Government to help the people of the city?
    Mr. Comey. Well, in Chicago, we have actually gone so far 
as to put FBI agents with Chicago police officers in squad cars 
to try and focus on some of the predators who are driving this 
violence, the gang bangers who think that they operate freely. 
So we do gang task forces. We do drug task forces. And as I 
said, we operate even on an ad hoc basis to try and lock up 
some of the repeat offenders. And the idea there is to try and 
change behavior by ripping out the worst and convincing the 
rest you should not have a firearm with you if you are a 
prohibited person.
    Mr. Gutierrez. So as I look at the challenge of gun 
violence in the city of Chicago and I see that there are--I 
mean, if we took a map of the city of Chicago and we put, 
reluctantly, little stars where people had been murdered due to 
gun violence, do you know or have you seen, is it the whole 
city of Chicago? When I look at it, I'm not that worried about 
my grandson walking in Portage Park to the park. I'm worried 
but not that worried as I would be in other neighborhoods of 
the city. So what other dimensions are there that relate to gun 
violence as you've seen from a----
    Mr. Comey. I know the city of Chicago pretty well, having 
gone to law school and been there many, many times. And the 
story of Chicago is a lot like the story of a bunch of cities 
around the country. It's localized. The violence is heavily 
concentrated. Chicago, primarily south, some west, obviously. 
And it is groups of primarily young men who are carrying 
firearms when they're prohibited by law from carrying them on 
the streets, and that inevitably leads--all human encounters 
ratchet up to the most serious available weapon. And so what 
would have been a fistfight when you were a kid, today is a 
shootout because the gun is there. And what we in law 
enforcement are trying to do is change that behavior. These 
kids may not be well educated, but they are very good at cost-
benefit analysis. And the idea is to force a cost-benefit 
analysis. That gun should be a huge liability in the eye of 
that felon, that drug dealer, that drug addict, and that's the 
way we hope to change behavior.
    Mr. Gutierrez. Mr. Director--just 15 seconds, and I'll 
finish up, Mr. Chairman.
    So Mr. Director, there are a group of us in the Hispanic 
Congressional Caucus and African American Members of color, we 
like to have a roundtable discussion with you, a conversation 
from different parts of the United States and not in such a 
formal setting as this in which you might be able to share with 
us how better, in communities of color in America, where the 
gun violence is so rampant, you might give us some of your 
thoughtful input. Would you agree to do that with us?
    Mr. Comey. I'd be happy to.
    Mr. Gutierrez. Thank you so much, Mr. Director.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Poe, for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Director, thank you for being here. I'm going to talk 
about several subjects, see how many of them I can get in in 5 
minutes.
    I first want to talk about ECPA, the idea that under 
current law, that if e-mail is stored in the cloud, government 
doesn't need a warrant to obtain that e-mail. Is that your 
understanding of the law?
    Mr. Comey. I think the law is--and you probably know best 
than I, but I think it's after 180 days.
    Mr. Poe. Yes, after 180 days.
    Mr. Comey. Right. We still operate under a warrant, the FBI 
does, that's just our policy, but I think that's the law. If 
it's older than 180 days, it can be gotten through other legal 
processes.
    Mr. Poe. And thanks for your clarification. It's after 180 
days. Before 180 days or during 180 days, you got to have a 
warrant, no matter who you are. FBI policy is, though, you 
still get a warrant if it's over 180 days?
    Mr. Comey. Correct.
    Mr. Poe. But other government agencies still have the 
ability to seize that e-mail without a warrant. Law 
enforcement. I mean, it could be a local law enforcement, the 
city police, sheriff's department, other law enforcement can 
seize that e-mail in their jurisdiction because the law doesn't 
require they get a warrant. I mean, is that your understanding 
of the law?
    Mr. Comey. They would need some kind of legal process. They 
couldn't just walk in and take it, but my understanding is the 
law would permit them to get it through a subpoena or some 
other court order short of a warrant.
    Mr. Poe. That's right. So they don't need a warrant. They 
need some other court document from a magistrate, if so. And 
I'm sure you're aware that myself and Ms. Zoe Lofgren filed 
legislation to require any law enforcement agency, any 
government agency to obtain a warrant if e-mails are over 6 
months old stored in a cloud. You aware of that legislation?
    Mr. Comey. I am. I'm generally aware, yes, sir.
    Mr. Poe. Okay. Next subject, 702, talk about obtaining 
backdoor information from different companies such as Google or 
Yahoo or whoever. Does the act, the FBI request that a backdoor 
device be put into like a cell phone?
    Mr. Comey. I don't know what you mean by backdoor device.
    Mr. Poe. Well, where the FBI could obtain the information 
in the cell phone without a warrant and ask the maker of the 
phone, for example, to install a device in the phone to obtain 
that information.
    Mr. Comey. Oh, I see. No, we would need a court order to be 
able to either in a device or online to be able to take content 
or implant something in a phone, not just a warrant. We need a 
title III order or a FISA court order.
    Mr. Poe. My question, though, is does the FBI request--and 
it may be that you don't--manufacturers to put a device in the 
phone itself to obtain that backdoor information, to have it 
available and then a warrant obtained?
    Mr. Comey. No.
    Mr. Poe. You don't request that?
    Mr. Comey. Nope.
    Mr. Poe. Okay.
    Mr. Comey. No, when we collect information, it's pursuant--
we're talking about the content of people's communication or 
what they've stored on a device, we do it through a court 
order. We don't do it through asking someone who made the 
device to give us access to it voluntarily.
    Mr. Poe. Okay. When you say court order, are you talking 
about a warrant or some other type of court order?
    Mr. Comey. Right. Either a search warrant from a judge to 
open a locked device or an order from a Federal judge either in 
a national security case or a criminal case if we're looking to 
intercept communication as it's moving.
    Mr. Poe. I think that, you know, the Fourth Amendment 
applies to that type of procedure, and you're saying the FBI 
complies with the law, the Fourth Amendment, on obtaining that 
information?
    Mr. Comey. Yes. The Fourth Amendment is part of this sort 
of the spine of the FBI.
    Mr. Poe. It's the what of the FBI?
    Mr. Comey. The spine of the FBI.
    Mr. Poe. I am glad to hear that. Let's talk about the 
surveillance with the use of drones and fixed-wing aircraft. 
Specifically, targeted surveillance with the use of a drone, 
does the FBI obtain a warrant to do that, use of a drone, 
fixed-wing aircraft or drone, whichever you want to call it.
    Mr. Comey. Any kind of aircraft, we don't. If what we're 
doing is, which is what we used them for, we have a pilot fly 
around and follow somebody. Drones, we don't. We have a small 
number of unmanned aircraft. We may use them for fixed 
surveillance, like when that guy had the kid in the bunker in 
Alabama, we used a drone to go over the top because we were 
afraid he would shoot one of the pilots. We had unmanned 
aircraft. We operate drones within line of sight.
    Mr. Poe. Okay.
    Mr. Comey. So when we're talking about surveilling someone, 
we're really talking about an airplane with a human being in it 
flying them around. We do not get a warrant for that. The law 
doesn't require it, but that's not involved with collecting the 
communications of somebody.
    Mr. Poe. I understand. I'm not talking about exigent 
circumstances. I'm just any circumstance, the law doesn't 
require--or there is no law saying the Fourth Amendment applies 
to the use of drones. The FAA makes those decisions. Does it 
not?
    Mr. Comey. Right. To follow somebody in a car or on foot or 
in a plane, we have to have a predicated investigation, but we 
don't have to go to court to get permission to follow that 
person.
    Mr. Poe. Do you think the FBI ought to make the rules 
regarding protection of the Fourth Amendment, or should 
Congress weigh in on what reasonable expectation of privacy 
should be regarding that type of issue?
    Mr. Comey. The FBI doesn't make any laws. Congress makes 
the laws, and the courts interpret them.
    Mr. Poe. I didn't say the FBI. Reclaiming my time, if the 
Chair would be so patient. The FAA--F-A-A, not the F-B--I--.
    Mr. Comey. I misunderstood.
    Mr. Poe. Not the F, B, and I, the FAA may make the 
regulations on what you can do with a drone and what you can't 
do. I think that Congress ought to weigh in and determine what 
the reasonable expectation of privacy ought to be with the use 
of drones.
    Do you have an opinion on that, being the Director of the 
FBI? Do you want the FAA to continue to do it, or do you think 
Congress ought to set that standard?
    Mr. Comey. I don't think I have----
    Mr. Goodlatte. The time of the gentleman has expired, but 
we'll permit the Director to answer the question.
    Mr. Comey. I don't think I have a view or a preference. I 
mean, the FBI, we are maniacs about wanting to follow the law.
    Mr. Poe. I understand.
    Mr. Comey. So if Congress decided to change the law, we 
would follow it.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Georgia, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Director Comey, in your testimony, you mentioned how ISIL 
and other terrorist organizations field potential recruits in 
publicly accessible social networking sites and via encrypted 
private messaging platforms. Could you detail the issues that 
law enforcement is facing due to the end of encryption?
    Mr. Comey. Yes, sir. The ISIL challenge illustrates the 
problem we call Going Dark. That ISIL increasingly uses, when 
they find someone who I call a live one, that is, someone who 
they might be able to motivate to engage in acts of violence in 
the United States, they move them from Twitter or Twitter 
direct messaging--Twitter direct messaging is available to us 
with court process--to a mobile messenger app that is end-to-
end encrypted, meaning if we get a court order from a judge and 
intercept the communication, we can't decipher it, we can't 
read it. And so those people, their communications become 
invisible to us even with a court order.
    That's the challenge. We actually face that in all kinds of 
criminal cases as well, but it is very well illustrated by the 
ISIL challenge. That's what I mean when I talk about that.
    Mr. Johnson. So, in other words, a foreign based person, a 
foreign person operating from a foreign location using social 
network such as Twitter can identify a potential target for 
radicalization, or someone who's already radicalized but who's 
reaching out to this foreign based person, and then they can 
take it to another site where their communications are 
encrypted, correct?
    Mr. Comey. Correct.
    Mr. Johnson. And because they're encrypted, then law 
enforcement, whether or not it has a warrant or not, cannot 
discover what they are talking about, even though they know 
that this foreign-based person is a ISIL member?
    Mr. Comey. That's correct, and we have to have a court 
order, but the court order would be useless.
    Mr. Johnson. Yeah. So now the practical impact of that is 
what?
    Mr. Comey. That we can't know what somebody, who's planning 
on an act of violence against a police officer or military 
member or a civilian is up to and when they are going to act, 
and we're limited to physical surveillance, trying to watch 
them and figure out what they're going to do or trying to get 
other ways to get visibility into what they're up to. So it is 
darkness, or they go dark to us in a way that's really 
important in those matters.
    Mr. Johnson. Okay. And you mentioned about traditional 
crimes, domestic crimes, and how encryption hurts your ability 
to get at domestic criminal activity. Can you talk about how in 
a case of hot pursuit or exigent circumstances, this adversely 
affects our ability to keep Americans safe from domestic crime?
    Mr. Comey. There's lots of different ways in which it 
impacts. In fact, I believe the going dark problem 
overwhelmingly affects State and local law enforcement. People 
talk about it like it's an intelligence question, but it's 
actually almost entirely a law enforcement question because--I 
mean, to give you an example that a lot of DAs talk about. If 
they recover a cell phone, right, at a scene where someone has 
been murdered or been kidnapped, they cannot open the device, 
even with a court order, to figure out who was that person 
communicating with before they disappeared? That's the most 
basic example.
    We also are increasingly encountering it where drug gangs 
or carjacking gangs are communicating using apps, text apps 
that are encrypted end to end and with a court order we can't 
read. So it's becoming increasingly--the logic of it is, it 
will affect all of our work at some point. Hundreds and 
hundreds of cases will eventually be affected by it because it 
is all of our lives are becoming part of the digital world. And 
when the digital world is covered by strong encryption, judges 
will not be able to order access in serious criminal cases or 
in national security cases. That's the future we're coming 
towards, and my view is maybe that's where we want to be, but 
we ought to talk about it as we're going to that place.
    Mr. Johnson. Well, thank you for your responses to my 
questions.
    And I'll yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Utah, Mr. Chaffetz, for 5 
minutes.
    Mr. Chaffetz. I thank the Chairman, and Director, thank you 
for being here.
    The FBI has had to change through the course of time since 
my grandfather, who was a career FBI agent, served. I have 
great admiration for the agency and what you in particular are 
doing.
    I want to go back to cyber, we've talked a lot about cyber. 
Can you articulate the size, scope, and investment that you in 
both personnel, dollars to address the cyber threat that's 
going to continue in perpetuity?
    Mr. Comey. Thank you, Congressman.
    I probably can't give you exact numbers sitting here, but 
we have a cyber division headquarters that does nothing but 
cyber-related work and then cyber task forces in every single 
FBI field office, cyber squads, but that doesn't quite capture 
it because all of the threats we're responsible for come at us 
through the Internet now, whether it's kids being protected or 
terrorists coming after us, and so everybody actually has to 
be, in a way, a cyber analyst or a cyber agent. So I could give 
you specifics on how many hundreds, thousands of people are 
assigned to do cyber work, but it's actually even broader than 
that.
    Mr. Chaffetz. What is it that you can't do? That is, is 
there another department or agency that's doing something that 
the FBI couldn't do?
    Mr. Comey. In the cyber realm?
    Mr. Chaffetz. Yeah.
    Mr. Comey. That's a good question.
    Mr. Chaffetz. Well, thank you.
    Mr. Comey. Yeah, I can't think of it sitting here. Our 
responsibilities are obviously confined to the United States, 
and so we work with our partners, NSA, in particular, in trying 
to fight the cyber threat that's coming from overseas. The 
bureau doesn't have the ability to reach out in that way, and 
so that's something we can't----
    Mr. Chaffetz. Let me ask you in the context of the United 
States Secret Service. I was surprised to learn that the agents 
that they have, two-thirds of their time is spent on 
investigations and cyber. And it begs the question to me, why 
do we have such a small group of people doing that, which the 
FBI has a much bigger resource, infrastructure, and expertise 
in doing? And as we look at potentially restructuring the 
Secret Service and getting more focused on the protective 
mission, why not combine the two? Or what is it that they do 
that you don't want to do or that they do that you can't do? 
I'm trying to get my arms around it.
    Mr. Comey. It was such a good question, I misunderstood it. 
I'm sorry. One of the things I've been trying to do is drive us 
closer together with the Secret Service because they have 
expertise, especially in the financial related intrusions and 
credit card scams. They've spent years developing that 
expertise, and so I don't want to duplicate it, so we're trying 
to drive ourselves together.
    I'd like us to combine our task forces. It doesn't make any 
sense for them to have an Electronic Crimes Task Force and me 
to have a Cyber Task Force, there ought to be one. They do 
great work. I want to make sure we don't duplicate, and I want 
to do joint training with them. They're doing some great 
training, so are we. That's one of the things we can't do. We 
can't do enough for State and local law enforcement to help 
them deal with digital crimes.
    Mr. Chaffetz. So in terms of the personnel that you have 
associated with that, how would that work? Are there other 
agencies that would also--I mean, Secret Service is but one. 
Are there other agencies that should be also included in that 
because we've got a homeland security organization that thinks 
they should be in charge of all the cyber?
    Mr. Comey. Yeah, I think with respect to the criminal work 
that we do, there are people at HSI within Department of 
Homeland Security who are doing cyber-related crime work, and 
then there's a lot of State and local law enforcement doing it, 
and they are part of our task forces.
    Mr. Chaffetz. Can you shed anymore light on the FBI's next-
generation cyber initiative? Explain that to me a little bit 
more.
    Mr. Comey. Without eating up all your time, it's our 
strategy, my strategy for where we are going to take the FBI in 
the next 3 to 5 years, and so it involves deploying our people 
in a different way, getting better training, better equipment, 
focusing ourselves on the threats that I think the FBI, given 
its footprint, is best able to address, so it's our sort of 
whole of FBI approach to cyber over the next 3 to 5 years.
    Mr. Chaffetz. And so when you have FBI personnel that will 
focus potentially their entire career just an cyber, correct?
    Mr. Comey. Correct.
    Mr. Chaffetz. They won't necessarily be bouncing around to 
different tasks?
    Mr. Comey. Correct.
    Mr. Chaffetz. All right.
    I appreciate the time. I'll yield back.
    Mr. Franks [presiding]. And I thank the gentleman, and 
we'll now recognize Mr. Deutch for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Director Comey, thanks so much for being with us today. I 
represent south Florida, Broward County and Palm Beach County, 
and we are experiencing an alpha-PVP, or flakka, epidemic. 
Broward County is the epicenter of the ongoing national flakka 
crisis. In Broward, the number of cases is spiraling out of 
control. The Broward County Sheriff's Office has stated that in 
January 2014, they analyzed a single flakka case. By September 
2014, they were analyzing 80 cases. This year, the sheriff's 
office has reported analyzing approximately 100 cases per 
month.
    Flakka cases are also flooding the county health system. 
The Broward health system has reported that they're receiving, 
on average, 12 cases per day. In this past year, it has 
contributed to the death of 45 people in Broward County.
    Flakka use has also started to spread northward into Palm 
Beach County. In 2014, there were 35 submissions involving 
flakka to the Palm Beach Sheriff's Office crime lab. In 2015, 
there have been 42. There have been 10 arrests in Palm Beach 
County, and flakka is now moving into Tennessee, Kentucky, 
Ohio, and other the States.
    As you're aware, people using flakka experience 
hallucinations, delirium, violent outbursts, and extreme body 
temperatures that often cause the users to remove their 
clothes. Flakka is extremely cheap. It costs $5. And it can be 
easily purchased online from China. The low cost of the drug 
and the easy access are very troubling.
    Flakka, as is the case with other synthetic drugs, is 
extremely difficult for law enforcement to prosecute. The 
primary problem is that the composition of the synthetic drug 
can't be pinpointed and classified as illegal because the drugs 
are constantly changing their composition. And as soon as the 
synthetic drug is listed as illegal, the composition is changed 
ever so slightly to evade the listing that made the drug more 
readily available.
    In fact, a recent news report in Miami found that flakka is 
now being made into gummy bears--gummy bears. The only 
difference between the real ones and flakka gummy bears is that 
the ones containing flakka are individually wrapped and 
stickier. Dealers are using them now to hook young people.
    So if you could target the efforts that the FBI has taken 
to crack down on this epidemic of synthetic drugs, flakka, in 
particular, and speak to the challenge that you face in 
cracking down on, again, these sorts of cases involving flakka 
and other synthetic drugs.
    Mr. Comey. Thank you, Congressman. The synthetic, I think 
the word is cannabinoids, and my friend, Chuck Rosenberg, the 
leader of the DEA, is probably laughing listening to me 
mispronounce it, but it is a serious problem that I hear about 
all over the country.
    So DEA obviously has the lead on the Federal level, but we 
are participating through our drug task forces with DEA in 
trying to do something about that scourge, which you're exactly 
right: it's appearing in gas stations or little markets where 
kids can walk up and buy these things not knowing exactly what 
they're buying, and it will wreck their life.
    Mr. Deutch. And the current law permits synthetic drugs to 
be treated as a controlled substance if they are proven to be 
chemically and/or pharmacologically similar to schedule I or 
schedule II controlled substances, but as I pointed out, the 
nature the drugs keep changing. They change the chemical 
structure to avoid being listed as a controlled substance, so 
my question to you is what steps can lawmakers take to help in 
your efforts, local enforcement efforts, as well, to crack down 
on this epidemic?
    Mr. Comey. Yeah. I honestly don't know. I from talking to 
Acting Administrator Rosenberg, that they are keenly focused on 
that problem, which is every time they schedule one of these 
things, it comes in from China slightly different, and so it's 
not scheduled anymore. They are sort of chasing it, playing 
Whack-A-Mole with a very dangerous substance. I don't know what 
the answer is, frankly.
    Mr. Deutch. Well, Director Comey, I would invite 
representatives of your task force and the DEA to come to south 
Florida. This is an issue that dominates the headlines. It's an 
issue that affects young people, and as you point out, the 
moment that somebody takes this, one of these synthetic drugs, 
flakka, which is so readily available in Florida and elsewhere, 
it changes and often ruins their lives. So I'm grateful for 
your focus on it, and I hope we have the opportunity to do 
something down in south Florida to really raise the issue so 
that people in south Florida can know what this focus is and 
how much we can do about it. Thank you very much.
    Mr. Comey. Thank you, sir.
    Mr. Franks. I thank the gentleman.
    Will now recognize Mr. Marino for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Good afternoon. Good morning. It's good to see you.
    Mr. Comey. Good to see you again, sir.
    Mr. Marino. I, too, am a maniac for the rule of law. As 
you're aware, most of my adult career was in law enforcement, 
and I still consider myself a law enforcement guy. My family 
has been in law enforcement for a long time as well, so I 
appreciate your comments concerning oversight and the rule of 
law, and that's needed very much today. I think even more so 
today, but I do want to emphasize the fact that I've worked 
with all agencies, State, local, and Federal, and 99.9 percent 
of our agents out there are topnotch, and I trust them watching 
my back at any time.
    But, with that, you have very effectively answered two 
questions that I had that I was going to ask you, so as a 
result, I will yield back the remainder of my time, and best of 
luck.
    Mr. Comey. Great to see you, Mr. Marino.
    Mr. Franks. And I thank the gentleman.
    I now recognize Ms. Bass for 5 minutes.
    Ms. Bass. Thank you, Mr. Chair.
    And thank you, Director, for coming and testifying today.
    I'd like to talk about the recent operation cross traffic, 
FBI's nationwide effort to crack down on child sex trafficking. 
The FBI's October 13 release about the operation states: 
``Operation Cross Country, a nationwide law enforcement action 
that focused on underage victims of prostitution has concluded 
with the recovery of 149 sexually exploited children and the 
arrest of more than 150 pimps and other individuals.''
    And, first of all, I'd like to commend the agency for 
correctly referring to the children as sexually exploited 
children versus prostitutes because a child who is under the 
age of consent should never be considered a prostitute.
    This release refers to other individuals, and I was 
wondering who those other individuals were. I have a concern 
that while it's extremely appropriate to focus on the pimps, 
it's also, in my opinion, very much appropriate to focus on the 
child molesters who some people would call Johns, but I would 
like to know if that's who you were referring to, and what is 
the focus on the child molesters?
    Mr. Comey. Yes, Congresswoman, that is what I understand 
was meant by that. There were more than 100 so-called Johns 
arrested as part of Operation Cross Country along with the 
pimps and the children being exploited.
    Ms. Bass. Thank you. The release also says that the 
children were recovered, and I wondered what does that mean. So 
what has happened or will happen with the children?
    Mr. Comey. As part of Operation Cross Country, the folks I 
call the angels of the FBI, which are our victim specialists, 
are deeply involved in the operation to make sure that those 
kids get either reunited with their families, or so many of 
them come from foster care.
    Ms. Bass. Right.
    Mr. Comey. If they get in a new placement, a healthier 
placement, a lot of them need medical attention right away. And 
that's what was meant by that, to get that child to a place 
where they are cared for either by the biological family or a 
placement in a foster family.
    Ms. Bass. And in addition to medical attention, they 
certainly need a tremendous amount of therapy. I think it's 
important, you know, in the future, I would appreciate it if 
you would lift up--where you were saying that the other 
individuals were referring to the child molesters, I think it's 
really important that we focus, we call it correctly and that 
we focus on that.
    In addition, I would also like to know if the FBI tracks 
the number of children that are in foster care. We know that a 
large percentage of these kids are in foster care, but there's 
not a lot of documentation. Do you have documentation that 
could give us some numbers?
    Mr. Comey. I think we do. I think our intelligence 
analysts, who support an effort like this, have done some good 
work on that front. I'm a foster parent, so they know it's a 
passion of mine.
    Ms. Bass. Oh, I didn't know that.
    Mr. Comey. And so I think we could equip you with at least 
some of our thinking on it as we do this work.
    Ms. Bass. Great. Well, I would like to follow up with your 
office and get that data.
    I'd also like to commend you for your Innocence Lost Task 
Force, and I'd like to know if there's more that we can be 
doing to assist your efforts in Innocence Lost. I work with 
them in the Los Angeles area, and you know, you have been in 
the leadership of bringing different sectors of law enforcement 
together to understand this problem and address it.
    Mr. Comey. Well, I appreciate your interest in it, and I 
will ask my staff to think about ways in which we might get 
more help. We appreciate the offer.
    Ms. Bass. Okay. Thank you.
    And I yield back my time.
    Mr. Franks. And I thank the gentlewoman.
    We now recognize Mr. Labrador for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chair.
    Mr. Director, it's great to have you here. I have heard 
from many of my constituents about the refugee program and its 
impact on Idaho. As refugee admissions are increasing, there is 
growing concern that bad actors are not being caught in the 
vetting process and are gaining admission alongside bona fide 
refugees living in fear.
    I'm actually an advocate of refugee programs. I think it's 
a good thing to have refugee programs, but there's a lot 
misconceptions out there and a lot of real fear about the 
people that are coming into the United States. This Congress 
has an obligation to address those concerns and ensure that the 
process is working correctly and protecting our national 
security.
    Numerous times over the past year, including yesterday, 
both the FBI's Assistant Director for the Counterterrorism 
Division Michael Steinbach and yourself have testified about 
the flaws and limitations in the vetting of Syrian refugees.
    On October 8, you testified that you were concerned about 
certain gaps in the data available to the FBI, and yesterday 
you testified that the FBI can only query what has been 
previously collected, which is obvious.
    I know that you have addressed this issue before and you've 
addressed it, I think, once here today, but can you please 
explain to this Committee the security gaps that exist for 
purposes of conducting full and effective background checks on 
foreign nationals who claim to have fled the conflict zone of 
Syria and who are seeking to be resettled as refugees in the 
United States?
    Mr. Comey. Certainly. Thank you, Mr. Labrador. We learned 
some good lessons from less than excellent screening of Iraqi 
refugees 8 years ago or so, and in fact, we learned that some 
folks we had let in were serious actors that we had to lock up 
after we figured out who they were. And so we have gotten much 
better, as an intelligence community, at joining our efforts 
and checking our databases in a way that gives us high 
confidence. If we have a record on somebody, it will surface. 
That's the good news.
    The bad news is, as we talked about earlier, with Iraqi 
refugees, we had an opportunity for many more encounters 
between folks in Iraq and our soldiers, for example, so we had 
a lot more data. We had fingerprints, iris scans, we had 
forensics of different kinds. The challenge we face with Syria 
is that we don't have that rich a set of data, so even though 
we've gotten better at querying what we have, we certainly will 
have less overall.
    And so as I said to a question earlier, someone only alerts 
as a result of our searches if we have some record on them. 
That's the challenge we face with Syria.
    Mr. Labrador. So is it accurate to state that the lack of 
intelligence available on the ground in Syria is rendering our 
traditional database biographic and biometric checks obsolete?
    Mr. Comey. I wouldn't agree obsolete, but I would say we 
have a less robust data set dramatically than we had with Iraq, 
so it will be different.
    Mr. Labrador. So the FBI has repeatedly contrasted the 
United States' ability to collect intelligence on the ground in 
Iraq with its ability to do so in Syria. What can the FBI do to 
adapt to improve security checks for refugees originating from 
failed states with no available intelligence?
    Mr. Comey. Well, that's a hard one. What we can do, the 
FBI, is just make sure that whatever is available figures into 
our review, but the underlying problem is, how do you generate 
intelligence in failed states? And that's one I don't have a 
good answer for.
    Mr. Labrador. So are you currently working with the 
intelligence community to try to fix this problem?
    Mr. Comey. Oh, certainly. Everyone in the intelligence 
community is focused on trying to mitigate this risk by 
querying well and also finding additional sources of 
information so we can check against it.
    Mr. Labrador. Recognizing that ISIS and Syria and that 
there is a risk that bad actors may attempt to take advantage 
of this Administration's commitment to bring at least 10,000 
Syrian refugees into the United States over the next year, can 
you estimate the manpower and resources that will need to be 
diverted from other investigative programs to address this 
threat?
    Mr. Comey. I'm not able to do that sitting here.
    Mr. Labrador. How can I ensure my constituents that the 
people that may come to Idaho are safe, that they are not 
terrorists, that the people in my community are going to be 
safe?
    Mr. Comey. Well, on behalf of the FBI, what you can assure 
them is that we will work day and night to make sure that if 
there's information available about somebody, we have surfaced 
it, and we have evaluated it.
    Mr. Labrador. And I understand that if there is 
information, but the problem is that we don't have the 
information on most of these people. Isn't that true?
    Mr. Comey. Yeah, and so I can't sit here and offer anybody 
an absolute assurance that there is no risk associated with 
this.
    Mr. Labrador. Thank you very much.
    I yield back my time.
    Mr. Franks. And I thank the gentleman.
    I now recognize Ms. DelBene for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chair.
    And thank you, Director Comey, for being here and for your 
service. I know as Acting AG, you demonstrated a commitment to 
the Fourth Amendment and protecting Americans' privacy, despite 
enormous pressure to do otherwise, and you mentioned in your 
original testimony and in other comments that the rule of law 
and the Fourth Amendment is the spine of the FBI, and so I 
appreciate that commitment. I'd like to ask you a few questions 
about the FBI's use of aircraft.
    The FBI deployed aircraft over Ferguson last year in 
response to requests from local law enforcement. Is that 
correct?
    Mr. Comey. Yes.
    Ms. DelBene. Does the FBI respond to these types of 
requests frequently?
    Mr. Comey. Well, thank goodness there aren't the kind of 
turmoil and pain in communities frequently, but sure. If local 
law enforcement asks for help in getting a look at a developing 
situation, we will offer that help. We've done it in Baltimore. 
We did it in Ferguson, as I recall.
    Ms. DelBene. And what criteria have to be met for the FBI 
to send aerial resources to assist local law enforcement, or 
who makes that decision?
    Mr. Comey. It's made at a fairly high level in the FBI. I 
think at the special agent in charge level, at least that is 
the commander of the field office, so it has to go up through a 
variety of checks before it can be approved.
    Ms. DelBene. And what are the criteria that you use to make 
that decision?
    Mr. Comey. I think it has to be part of an open 
investigation of ours or part of an open assistance to law 
enforcement matter. We can get you the particulars of our 
policy, but as you know, the bureau has a policy for 
everything, so there's a series of steps that have to be walked 
through to make sure it's part of either an open case of ours 
or it's a legitimate open assistance to law enforcement matter.
    Ms. DelBene. Okay. Thank you. I'd appreciate that 
information.
    Your staff also acknowledged that the FBI ``routinely uses 
aviation assets in support of predicated investigations 
targeting specific individuals, and when requested and 
appropriate, in support of State and local law enforcement.''
    Why is it so important to stress this distinction when it 
appears that it's kind of more generalized type of 
surveillance?
    Mr. Comey. I'm sorry, the distinction?
    Ms. DelBene. The distinction that you have in the feedback 
from your staff that you use aviation assets in support of 
predicated investigations targeting specific individuals when 
in these cases of local law enforcement, et cetera, it seems to 
be more generalized type of surveillance.
    Mr. Comey. Oh, I see. Well, I think we're just trying to 
explain how we use it. We don't fly planes around America 
looking down trying to figure out if somebody might be doing 
something wrong. The overwhelming use of our aircraft is a 
pilot flies as part of an investigation to help us follow a 
spy, a terrorist, or a criminal, and then with local law 
enforcement, if there is tremendous turbulence in a community, 
it's useful to everybody, civilians and law enforcement to have 
a view of what's going on: Where are the fires in this 
community? Where are people gathering? Where do people need 
help? And sometimes the best view of that is above rather than 
trying to look from a car in the street.
    Ms. DelBene. And do you feel that warrants are necessary 
when you're targeting specific individuals, especially when you 
have aircraft equipped with new technologies like high-
resolution cameras?
    Mr. Comey. I don't think so. I mean, I meant what I said 
about the Fourth Amendment. We are not collecting the content 
of anybody's communication or engaged in anything besides 
following somebody when we do that investigation, so as I said, 
we've done it since the Wright brothers with planes, and we do 
it in cars, and we do it on foot, and the law is pretty clear 
that you don't need a warrant for that kind of observation.
    Ms. DelBene. But now that there are technology changes--I 
think even the most recent court case, you know, Florida v. 
Riley, was in 1989--there has been a lot of changes in 
technology, and so it's not just what you might see with the 
human eye anymore. So are there other types of technologies, 
and do you think warrant standards should be in place when you 
have other types of technologies that might be used on this 
aircraft?
    Mr. Comey. I suppose if you are putting technology on an 
FBI aircraft that had Fourth Amendment implications, that is 
that it was reaching someone's communications or looking within 
a dwelling or something like that, it would have Fourth 
Amendment implications. But that's not what we use the aircraft 
for.
    Ms. DelBene. So what led to the decision to seek court 
orders when aircraft are equipped with Stingray technology?
    Mr. Comey. Right. We have one aircraft that we can put 
Stingray technology on it, that is cell-site simulators, and I 
suppose we can mount it on others if we had a court order to do 
it. But we have decided as a matter of policy--now the whole 
Department of Justice does this--that if we're going to be 
operating a cell-site simulator, it has Fourth Amendment 
implications, so we will get a warrant for that. So whether 
that's on the ground or in an airplane, we treat it the same 
way.
    Ms. DelBene. You said you decided. Do you feel like that 
you're required by law to do that?
    Mr. Comey. I think we made that move before there was even 
a divide among opinions in the court. Some courts have said you 
need it for that, some not. We went nationwide with a 
requirement for warrants. There has been no national decision 
on that, no Supreme Court-level decision on that, but we just 
think, given that some courts are requiring it, we do it across 
the country.
    Ms. DelBene. Thank you. My time has expired.
    Mr. Franks. I thank the gentlewoman and now recognize Mr. 
Buck for 5 minutes.
    Mr. Buck. Good morning, Director Comey.
    Mr. Comey. Good morning.
    Mr. Buck. I wanted to ask you, do you remember Mr. Cohen's 
questions about renaming the FBI headquarters building earlier?
    Mr. Comey. Yes.
    Mr. Buck. And I appreciate your response that we have to 
look at things through the lens of history. I wanted to ask you 
about a few other historical figures and see if there were any 
other FBI buildings named after some of these folks.
    Former Democrat Senator Robert Byrd of West Virginia was a 
member of the KKK. He was a recruiter for the KKK, and he held 
leadership positions with the KKK. The State Capitol in 
Charleston, West Virginia, is named after Senator Byrd. The 
United States Courthouse and Federal Building in Beckley, West 
Virginia, is named after Senator Byrd. The United States 
Courthouse and Federal Building in Charleston, West Virginia, 
is named after Senator Byrd. And the Federal Correctional 
Institution in Hazelton, West Virginia, is named after Senator 
Byrd.
    My question is, do you know of any FBI buildings named 
after Senator Byrd?
    Mr. Comey. I don't know. And I don't know whether we have 
folks sitting in the courthouse. I just don't know sitting 
here.
    Mr. Buck. Okay. Former Democrat President Woodrow Wilson 
resegregated the entire government, including the Armed Forces, 
held a showing of the movie ``Birth of a Nation'' at the White 
House, and went so far as to praise it in spite of calls by the 
NAACP to ban it. ``Birth of a Nation'' was subsequently used as 
a recruiting tool for the Ku Klux Klan. Likewise, there are a 
number of buildings around this country named after President 
Wilson. In fact, there is a bridge leading in and out of 
Washington, D.C., named after President Wilson.
    Do you know of any buildings that the FBI occupies or 
predominantly owns that are named after President Wilson?
    Mr. Comey. I don't.
    Mr. Buck. Former President Lyndon Baines Johnson was fond 
of using the ``N'' word, used it in the White House, used it 
while he was Senate majority leader, and used it in many other 
public settings. Many Federal buildings are named after him.
    Are there any FBI buildings named after President Johnson.
    Mr. Comey. I don't know.
    Mr. Buck. And lastly, President Truman wrote to his soon-
to-be wife the following words: ``I think one man is just as 
good as another so long as he is not a 'N' word or a 
Chinaman.'' Again, many buildings named after President Truman.
    I'm just wondering, any FBI buildings named after President 
Truman?
    Mr. Comey. I don't know, sir.
    Mr. Buck. And last after last, Democrat Senator Richard 
Russell was also a member of the Ku Klux Klan, and there is a 
Senate building named after Senator Russell. I assume there 
are, at least to your knowledge, no FBI buildings named after 
Senator Russell?
    Mr. Comey. I don't know. I don't think so, but I don't 
know.
    Mr. Buck. And my last statement I guess would be that 
perhaps Congress should clean up its own act in naming 
buildings before it asks the FBI to, without the lens of 
history, try to rename buildings.
    I yield back my time.
    Mr. Franks. And I thank the gentleman and now recognize Mr. 
Cicilline for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Director Comey, for your service and for coming 
before the Committee today and for sharing your valuable 
insights. And thank you also to the extraordinary men and women 
who serve the Bureau and help keep our country safe, and I 
think our entire Nation owes them a debt of gratitude.
    Many us expressed our sincere concern and condolences 
following the recent mass shooting in Roseburg, Oregon, where 
nine innocent men and women lost their lives. Many of us have 
shared the same sentiments following tragically similar events 
in Lafayette or Newtown and Blacksburg.
    But as more Americans lose their lives to senseless gun 
violence, this Congress has failed to act. And, Director Comey, 
with this in mind, I'd like to draw on your experience to help 
us find solutions to this growing epidemic and to help us find 
the guts to take necessary action.
    And so first I want to just draw your attention to the 
shooting which occurred at the Emanuel African Methodist 
Episcopal Church in Charleston, South Carolina. Following the 
shooting, you ordered the FBI to conduct an internal review of 
policies and procedures surrounding background checks for 
weapons purchases. So my first question is, did that review 
occur, and what were the findings of that review?
    Mr. Comey. Thank you, Congressman. The review did occur. I 
asked my folks to do a 30-day examination, and two things came 
out of that. First, it confirmed the facts as I understood 
them. There were no new facts with respect to Dylann Roof's 
purchase in particular that changed. And then it highlighted 
two potential areas for improvement, one internal to the FBI, 
one external.
    Internal, it highlighted for us that maybe we can surge 
resources and technology to try and reduce the number of gun 
sales that are held in the delayed pending status longer than 3 
days, and so that work is underway. And then secondly, to get 
better and more timely records from State and local law 
enforcement about the disposition of people's arrests so that 
our examiners have good records to make a judgment on. And 
those conversations are ongoing.
    Mr. Cicilline. So those are actually the two areas I'd like 
to discuss. As you well know, the current law requires that if 
a requested purchase of a firearm is made, a background check 
is initiated, the FBI has 3 days to respond. If no response is 
provided, then the gun dealer is able to sell the weapon. My 
understanding is the FBI continues the review anyway, even in 
it's beyond the 3 days. That information is then conveyed to 
the gun dealer, and if that person is disqualified from buying 
a gun, what does the FBI do? So you now know a sale has 
occurred--or do you know a sale has occurred--and do you take 
action?
    Mr. Comey. Yes. If after the 3-day window the gun is 
transferred and then the examiners discover disqualifying 
information, my recollection is--and if I'm wrong, we'll fix 
this--a notice is sent both to local law enforcement in that 
jurisdiction and to the Bureau of Alcohol, Tobacco and Firearms 
so that they can retrieve the firearm from the prohibited 
person.
    Mr. Cicilline. So I would like to work with you on that 
because I'm not sure that that is actually the practice. I 
think that notice may go to ATF, but I don't believe it goes to 
the gun dealer or to local law enforcement. And I think that's 
a way that we can try to keep guns out of the hands of people 
who don't have them, and I would very much like to work with 
you on that.
    The second issue is how do we incentivize, require, 
encourage local law enforcement to actually use the NICS 
system? Because that background check system is only as good as 
the information that's in it. Have you done an analysis of what 
States participate, where the deficiencies are, or things we 
could do or that Congress can do to help ensure that more 
States are providing that disqualifying information so at the 
bare minimum we're keeping guns out of the hands of people who 
shouldn't have them under law?
    Mr. Comey. Yeah. The mass murder in Charleston was an event 
that I think caused a lot of folks in local law enforcement, 
State law enforcement, to focus on this question. And as I 
said, there's a whole lot of conversation going on, and we are 
pushing out training to State and local law enforcement to 
explain to them what we need and why we need it in a timely 
fashion.
    I don't have as I sit here suggestions for how Congress 
might help us incentivize that cooperation. I think they're 
good people, and when they see the pain of a situation like 
Dylann Roof's, they want to be better. But I will get back to 
you if I have ideas for how Congress can help.
    Mr. Cicilline. Because, as you well know, Director, we 
can't require participation with the NICS system as a result of 
a Supreme Court decision, but we ought to be able to do things 
to create serious incentives or maybe penalties for States that 
fail to furnish that information, because as a result of that 
information not being in the NICS system, people are walking 
into gun stores and buying guns who would be otherwise 
disqualified if that information were known.
    So I look forward to working with you on that. I think it 
should be an urgent national priority, and I thank you for the 
work that you're doing.
    I yield back.
    Mr. Franks. I now recognize the gentleman from Georgia, Mr. 
Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    Thank you, Director, for being here, and I appreciate it. 
My father, as well as some of the others, my father was a 
Georgia State trooper for all his life, 30-plus years. So I 
appreciate your commitment to law enforcement and being a part.
    I do have some quick questions that I wanted to go back on. 
One has to do with an advisory that was put on October 8 for 
dealing with credit cards and the chip issue here that was for 
consumer fraud, stated that new credit cards equipped with the 
microchip security technology were still vulnerable to identity 
theft and that the use of PIN authentication in addition to a 
chip would be a more secure way that consumers' transactions 
would be more simple, signature verification. However, within 
24 hours that advisory was taken down and a few days later 
issued an advisory that no longer included the PINs.
    Now, it's my understanding Canada, Australia, many other 
countries have encouraged the PIN authorization because it, 
frankly, has a lower fraud rate.
    My question would be is, in light of that, does the FBI 
consider PIN as a more secure form of authentication over 
signature verification?
    Mr. Comey. I think the experts at the FBI would say that 
PIN-and-chip is more secure than PIN-and-signature. And the 
confusion there was our folks put out that public service 
announcement, and it was a miss on our part, without focusing 
on the fact that most merchants in the United States don't have 
the capability to accommodate the PIN-and-chip. And so the 
worry was that's going to cause a whole lot of confusion when 
people start saying where's the PIN-and-chip when our equipment 
is set up in this country for PIN-and-signature.
    Mr. Collins. Okay. Well, let's talk about that a second, 
because many of the places that I go to you either swipe--
they're older cards, you just swipe, like on a gas station, or 
you go into--I used to own a store. We had a swipe machine. 
Many of them now have the--and many of those even with a swipe 
machine have a number for debit cards which is already there 
for the PIN. I know now, I've just gotten broken into using the 
chip because my new cards have chips, so I slide them in. I'm 
still learning how to do this. But the keypad is right there 
above it.
    I'm not sure I follow your answer there that the technology 
is not available. If the keypad is right there to input a 
number, why is the technology not available?
    Mr. Comey. I don't know. And I'm not the world's smartest 
person on this, but what I've been told by my folks is it is 
available in some places, but it's not widely available in the 
United States. And if I'm wrong about that, we'll correct that.
    Mr. Collins. I'm just going on my own personal. And, look, 
my, Doug Collins, me going into the store and putting my card 
in. I've rarely found one that is just pure swipe with no 
keypad, I think. And I was just concerned, and if that's not 
right and if you want to go back and look into that.
    I think the concern came among many that maybe there is 
also an issue because as a business owner myself, I paid 
different fees depending on how I did it, like if a consumer 
used a credit card versus a debit card. And I'm just wondering, 
could that have been an issue, because using the PIN typically 
is a different fee? Was that possibly taken into account as the 
reason for the removal of this and changed to say, well, it's 
not as worrisome as we first thought?
    Mr. Comey. No. I think that could be the reason that, if 
I'm right, that the equipment is not widely available in the 
United States, that people don't have an economic incentive to 
change. But that was not a factor in why we withdrew the public 
service announcement. My understanding is we withdrew it 
because our worry was we're going to confuse a whole lot of 
people who are going to roll into places saying where is the 
chip-and-PIN and it isn't widely available. That's, as I 
understand it, that was the concern.
    Mr. Collins. Well, it is. And it's like everything, there 
was a lot of times before debit card. I think the concern here 
is, as we deal in information security and everything else, is 
you're always trying to move toward the more secure atmosphere. 
That's my only concern. And by moving back on that, it seemed 
like, at least in my opinion, that we're saying, okay, there is 
a better way, but we're not going to encourage that, we're just 
going to let the, you know, let the status quo sort of stand. 
So it was just a question.
    I do have a question. We hit ECPA earlier and the e-mail 
privacy, which I have a great interest in. One was said is 
basically the 180-day distinction in current law is something 
that we have talked about. You said that you use a warrant in 
all cases. It doesn't matter. Would you say that 30, you know, 
30--and there's been statements 30 prosecutors, former judges, 
all say that requiring law enforcement to obtain a warrant from 
a court does not prevent law enforcement from doing its job. 
Would you agree with that, especially in light of this issue?
    Mr. Comey. I think by and large that's true. I think it 
poses unique challenges for our colleagues at the SEC, for 
example, investigating corporate fraud, but I think by and 
large for law enforcement judges are available, and if we have 
the evidence, we can make the showing. So I think at a general 
level, sure.
    Mr. Collins. But in a general level, and also from your 
high standards as the FBI, I've always considered high 
standards, even the SEC, some of these agencies, that a 
warrant, whether they use it or not, they like it or not, I 
think from a law enforcement standpoint, from a concern 
standpoint, from a warrant standpoint, this is something that 
they could use that they could go through normal means in the 
investigation. I think that's the concern that many of us have.
    There is time for other questions, the hacking issues with 
OPM and China. Just a quick question, from the FBI's 
perspective, have we actually traced that and say, yes, for a 
fact, that we confirm that Chinese hackers stole this data from 
the OPM?
    Mr. Comey. I have with high confidence an understanding of 
who did it. I'm not in a position to say it in an open forum.
    Mr. Collins. Okay. And maybe we can get back on a different 
forum and discuss that, because like I said, that is a concern. 
We can't reward bad behavior, and I'm concerned that's what 
we're doing.
    With that, Mr. Chairman, I yield back.
    Mr. Franks. And I thank the gentlemen and now recognize Mr. 
Jeffries for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chair.
    And thank you, Director Comey, for your presence here today 
and of course your great service to this country.
    I think you testified earlier today in your belief as to 
the efficacy of mandatory minimums. Is that correct?
    Mr. Comey. Yes. I think I said they were a useful tool in 
my career as a prosecutor, especially in eliciting cooperation.
    Mr. Jeffries. And can you just elaborate as to whether you 
still believe that mandatory minimums in light of the explosion 
of the United States prison population, particularly relative 
to every other developed country in the world, is still a 
relevant law enforcement tool?
    Mr. Comey. I think it is. Again, I'm not in a position by 
expertise, and I shouldn't in my job offer a view on whether it 
ought to be 10 years or 5 years, but I think the certainty of 
punishment is a useful tool in fighting crime. And in the 
absence of mandatory guidelines, that often comes in the form 
of a mandatory minimum. But that's about as far as I have the 
expertise and the position to go.
    Mr. Jeffries. And is your view anchored in the fact that 
many prosecutors have articulated the position that in the 
absence of mandatory minimums they don't have the same club by 
which to solicit cooperation and perhaps obtain plea bargains? 
Would that be part of your view here?
    Mr. Comey. Yes. In my experience and comparing my 
experience with the State system, which did, again, in my 
experience as a prosecutor, did not have the tools to elicit 
cooperation that we did. But, again, that's not a view on 
whether it ought to be this or it ought to be that. I don't 
have the expertise, or I'm not in a position to offer a view on 
that. But some certainty of punishment absent cooperation is 
very, very valuable in eliciting cooperation.
    Mr. Jeffries. Now, there have been studies that have shown 
that in crimes that actually don't have mandatory minimums, the 
conviction rates at the Federal level are actually higher than 
the conviction rates of those where mandatory minimums do 
exist. And so I think that's part of the reason why an 
ideologically diverse group of individuals on both the left and 
the right, including the Heritage Foundation, which I believe 
said there's no evidence that mandatory minimums reduce crime, 
have questioned their continued need, at least in its current 
form.
    Now, can you comment on sort of the explosion of the United 
States prison population. When the war on drugs began in the 
early 1970's, we had less than 350,000 people who were 
incarcerated in America. Currently that number is in excess of 
2.3 million.
    As you know, we've got 5 percent of the world's population; 
25 percent of the incarcerated individuals in the world are 
here in the United States of America. Many of us believe it 
creates a competitive disadvantage for us going forward in 
addition to the damage that it does to the social fabric of 
many communities.
    Could you comment as to the mass incarceration phenomenon 
that exists in America and what, if anything, you think should 
be done about it from a public safety standpoint?
    Mr. Comey. Sure. I struggle with the word mass 
incarceration because it conveys a sense that people were 
locked up en masse when every case in some respects is a 
tragedy, in my view, but every one was individual, everyone had 
a lawyer, everyone had a judge, everyone had to be proven 
guilty.
    There is no doubt a whole lot of people are locked up, and 
that is a big problem for our country in one respect. But 
here's the fact: In 2014, America was far safer than it was 
when I was born in 1960. And I think a big part of that change, 
as a result of which a whole lot of people are alive today who 
wouldn't be, is due to law enforcement.
    And so I'm of a view that, yes, we can reform our criminal 
justice system. It can be better in a lot of ways. But we ought 
to reform it with an eye toward where we used to be and how we 
got from there to here, because I would not want to give back 
to our children and our grandchildren the America that we lived 
in, in the 1970's, 1980's, and 1990's. That's the reason I want 
us to be thoughtful about it.
    But I believe we can be better in a whole lot of ways that 
we probably don't have time to talk about.
    Mr. Jeffries. I certainly think it's important for us to be 
thoughtful. I grew up in New York City in the 1980's in the 
midst of the crack cocaine epidemic, 2,000-plus homicides in 
the city of New York alone. We're down under 350. And obviously 
no one wants to return to that.
    A Pew study, though, however, I believe concluded that in 
all 17 States that have cut their incarceration rates, they've 
experienced a decline in crime over the past decade. And so it 
seems to me that there's room empirically, based on the data, 
for a real discussion as to how to get the balance correct. I 
gather you share that view.
    And I just appreciate your willingness to continue in a 
dialogue for us to get the benefit of your views as we move 
forward toward criminal justice reform.
    Mr. Comey. Thank you. Happy to. Thank you.
    Mr. Jeffries. Thank you.
    I yield back.
    Mr. Franks. I thank the gentleman, and I now recognize----
    Mr. Cohen. Mr. Chairman, can I be recognized for a point of 
personal privilege?
    Mr. Franks. The gentleman is recognized, without objection.
    Mr. Cohen. Thank you, Mr. Chair.
    I'm a student of history, and when I make a mistake I want 
to correct it. And I was wrong in saying that Senator 
Vandenberg's son had committed suicide. It was a Senator Hayes, 
and his son was arrested in Lafayette Park for being gay. But 
that was McCarthy who was after him. So it was right church, 
wrong pew, but I wanted to correct the record.
    Thank you, sir.
    Mr. Franks. I thank the gentleman.
    I now recognize Mr. DeSantis for 5 minutes.
    Mr. DeSantis. Good afternoon, Director Comey.
    I've noticed--I'm a former prosecutor--companies have begun 
notifying customers when law enforcement requests data through 
a subpoena or warrant unless there is a court ordered 
nondisclosure requirement. And I think particularly for, like, 
child pornography investigations this may be an issue. Do you 
think that that that's something that could hamper 
investigations?
    Mr. Comey. I do. It's something I've been hearing more and 
more about over my 2 years in this job from prosecutors who are 
worried about it.
    Mr. DeSantis. Okay. I think we're going to address that, so 
I'm glad to hear you say that.
    The President has a plan to bring over a lot of people from 
the civil war in Syria, tens of thousands, perhaps as many as 
100,000. Can we vet them? And if not, isn't it just a fact that 
some of those people will be contributing to some of the 
homegrown terrorism that we have in this country?
    Mr. Comey. Thank you for that question. It's a very 
important issue that we have talked about a little bit here 
today. We can vet them. We have gotten better at vetting and 
learned lessons from the vetting of Iraqi refugees. The 
challenge we face is we can only vet against data that's been 
collected with respect to a person, and so the information we 
had for Iraq was much richer than we'll have for Syria.
    Mr. DeSantis. You can't call up the Damascus police 
department and get files, correct?
    Mr. Comey. You got it.
    Mr. DeSantis. So there's a problem here potentially, and I 
know it's going to fall on you then to have to defend the 
American people once some of these individuals come into the 
country, and it's just something that I'm concerned with.
    There has been talk about reforming sentencing. Is it your 
view--people will say that drug offenses are nonviolent 
offenses, but particularly when they get into the Federal 
system, where these are really significant trafficking offenses 
typically, is it accurate to say that they're nonviolent or is 
the drug trade inherently violent, in your judgment?
    Mr. Comey. Well, I guess each case is different. But in my 
experience anyone who is part of a trafficking organization is 
part of an organization that has violence all through it, and 
that whether you're a mill worker or runner or lookout or 
enforcer, you're part of something that's suffocating a 
community. And so I have a hard time characterizing drug 
organizations in any respect as nonviolent.
    Mr. DeSantis. And in terms of the drop in crime that you 
alluded to, is part of that simply because there have been 
stiffer sentences and so habitual criminals are incapacitated 
and they're off the streets, and therefore our communities are 
safer?
    Mr. Comey. I believe that was a big part, and I think most 
experts believe it was a big part of the historic reduction 
we've seen in crime over my career.
    Mr. DeSantis. With respect to individual offenses, I know 
there's been discussion about mishandling of classified 
information, 18 U.S.C. 1924. Just one, does the FBI keep 
records of all the investigations related to each offense of 
the criminal code?
    Mr. Comey. I don't know that it's searchable by each 
offense implicated by an investigation. If a case was charged, 
then the charged offenses would be reflected in Sentinel--
that's our recordkeeping--but I don't think every possible 
charge.
    Mr. DeSantis. So in other words, we know every mishandling 
of classified information offense, we can look that up, that 
actually gets brought by the U.S. attorney, but we don't know 
whether the U.S. attorney declined X number of cases pertaining 
to that?
    Mr. Comey. I think that's correct, but I also don't know 
with what clarity our records would reflect, if there were a 
number of potential violations in a case, whether it would be 
clear from our case files that it was that.
    Mr. DeSantis. Understood. In terms of handling classified 
information, there has been just stuff in the press about, 
well, something needs to be marked classified. And is your 
understanding of the U.S. Code that if I were to send 
classified information over an unsecure system, the fact that 
it was not marked classified, does that mean that I have not 
committed the offense?
    Mr. Comey. That one, as I did with Chairman Goodlatte, I 
think I'd prefer not to answer. I'm trying to make sure that, 
given that we have a matter under investigation now that 
relates in part to that topic, that I preserve our ability to 
be seen and to be in reality honest, independent, and 
competent. And if I start commenting on things that might touch 
it, I worry that I could jeopardize that.
    Mr. DeSantis. And I think that's an admirable posture, and 
I think it's one you've shown throughout your career. How does 
when the President of the United States renders a judgment 
about a specific case saying that there's no, for example, 
national security damage if certain information has been 
disclosed, how does that help the investigation, or does it 
hurt the investigation?
    Mr. Comey. The FBI is the three things I said earlier, 
honest, competent, and independent. We follow the facts, only 
the facts. All we care about are the facts.
    Mr. DeSantis. Well, I have no doubt that that will be how 
you conduct yourself. I just hope that as you guys do your 
work, as it moves on to other aspects of our system, that it's 
based on the merits of the case in every instance and it's not 
based on political edicts from on high.
    So thank you for your time. I appreciate it.
    I yield back.
    Mr. Franks. I thank the gentleman and now recognize Ms. 
Sheila Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you.
    And to Director, thank you so very much. You appeared 
yesterday in front of the Homeland Security Committee and added 
a great deal of insight. And so I'd like to not pursue a line 
of questioning but hope to have an opportunity to meet with you 
on something we began discussing yesterday, which is 
cybersecurity and the whole role that it plays as really, I'd 
almost call it another figure, if you will, another entity in 
this scheme of terrorism.
    I am the Ranking Member of the Subcommittee on Crime, 
Terrorism, Homeland Security, and Investigations, and with my 
Ranking Member and Chairman, we are looking to be responsible 
in addressing, which I believe, issues in the criminal justice 
system and somewhat overlapping the question of terrorism in 
this Committee, and certainly in Homeland Security.
    Let me just quickly start with a question that I think I 
introduced in the record yesterday, the No Fly for Foreign 
Fighters. And we heard testimony that indicated the numbers 
might be going down, and then I had a number in my notes that 
there was 250, approximately, Americans who had left to the 
foreign fight and may be coming back.
    The thing that I would say to you is that we must always be 
prepared. 9/11, the scenario of 9/11 was one that we had never 
imagined before. We had never imagined an airplane being used 
as a torpedo. We imagined hijacking. We lived through that. We 
never imagined. So most time imagination comes with Disney 
World, but I know that this is a very serious posture.
    And so we want to just, hopefully, any extra tool that we 
can give you with respect to refining and defining the lists 
that you have to make sure that we have every potential--not 
every potential--but every foreign fighter. Would that be 
helpful to you?
    Mr. Comey. Yes, we want to make sure the list is 
comprehensive. If we could get every foreign fighter on there, 
that would be great.
    Ms. Jackson Lee. So if we have this legislation, which is 
to add extra tools to you to ensure that that list is a vetted 
and a well-updated list, would that be helpful?
    Mr. Comey. I don't know the legislation, but the goal I 
share is to have a complete, updated, carefully vetted list.
    Ms. Jackson Lee. I appreciate that very much.
    Let me move now to guns. I don't want to put words in your 
mouth, but I imagine--and let me say that I served as a 
municipal court judge. I would see officers all the time, 
particularly see them undercover, and with a little smile on my 
face I'd have to say, ``Who are you?'' Because, obviously, 
dealing with some of the matters in local government, they were 
in some tough places and had to look that way as well.
    And I recognize the dangers that our officers face. We had 
a horrific tragedy in our community in Houston, but we just 
recently lost an officer again in New York, and we lose 
officers, as we do with others who are impacted by guns, the 
11-year-old who is a child who shot an 8-year-old over a dog, 
and another youngster, 3 years old, that had a gun, I believe, 
over this weekend and found it. We never can again imagine the 
ability of our children.
    I ask you the question, why law enforcement is not our 
biggest champion, not on gun control? I call it gun safety 
regulation, not on diminishing the Second Amendment, but I call 
it responsibly handling weapons. Who would want to lose a 4-
year-old in a drive-by shooting in New Mexico because someone 
had a gun?
    And so can you answer? We've introduced legislation, and 
you might want to comment on this in particular, that gives you 
an extended period of time on this gun check situation, which 
was one of the horrible situations in the South Carolina nine 
where you were doing your work or the system was doing its 
work, but since you weren't heard from, they just allowed this 
gentleman to get a gun and kill nine people.
    But can you answer? We have a number of legislative 
initiatives, Members of Congress don't want anything to do with 
taking away your gun, controlling, they want to regulate the 
safety infrastructure. I've introduced legislation to keep guns 
away from children.
    Mr. Director, in your dealing with law enforcement, the 
impact that guns have on this, more guns in the United States 
than people, the impact on the work that you all do, would you 
answer that for me, please?
    And my last thing before you go. There have been a number 
of church fires. We keep ignoring it. There's a series that 
just happened. We had another series before. Would you comment 
on the FBI's work that they're doing?
    And if the Chairman would just indulge me, I'd just throw 
another question there, and I appreciate it. If you take this 
name down, Robbie Tolan, T-o-l-a-n, who was killed on his front 
porch--it wasn't a porch, it was a cement driveway of his home. 
Excuse me. Let me stand corrected. Let me apologize to his 
mother. He was wounded and still lives with a bullet in his 
liver.
    And the disappointing aspect is that it was an officer who 
mistook him as an African American male in a stolen car. He was 
in his mother's car going home to his house in Houston, Texas, 
in a small city called Bellaire.
    And my question is for you to look into what further FBI 
investigation can go into this case, and I would greatly 
appreciate it.
    If, Mr. Chairman, you would allow him to answer that. I 
thank you for your indulgence.
    Mr. Franks. The gentlemen is welcome to answer the 
question.
    Mr. Comey. Thank you, Ms. Jackson Lee. I will certainly 
look into it, the last matter.
    With respect to church fires, we have not ignored them. Our 
agents are investigating a number of church fire incidents 
around the country. We have not found patterns and connections 
that connect to our civil rights enforcement work, but we are 
continuing to work on it.
    With respect to guns, the people in the FBI care deeply 
about trying to stop gun violence. What the Bureau does not do 
is get involved in the public policy legal questions because 
our job is to enforce the law. We leave it to the Department of 
Justice to make recommendations as to what the law should be. I 
think that's a place it makes sense for us to be, but we are 
passionate about trying to enforce the law against bad guys 
with guns of all kinds, especially in our cities where gun 
violence, especially gang-related gun violence, is increasingly 
a plague this year.
    Ms. Jackson Lee. Well, proliferation of guns endangers law 
enforcement across the Nation, does it not?
    Mr. Franks. The gentlelady's time has expired.
    Ms. Jackson Lee. Well, he was just shaking his head saying 
yes.
    Mr. Comey. Guns in the hands of criminals endanger all of 
us, including law enforcement.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Franks. I think all of us would agree with that.
    Director Comey, I will now recognize myself for 5 minutes 
for questions. And I want to thank you for being here. Many 
people here in the Committee have recognized your unbiased 
attitude toward enforcing the law as it's written, and I think 
that speak very highly of you, and I've been very impressed 
with the cogency and just the clarity of your testimony this 
morning. I believe that a commitment to independent enforcement 
of the law is a genuine and sincere conviction on your part.
    Director Comey, the Department of Justice has investigated 
past allegations of possible violations--and I know you've 
touched on this subject before, so forgive me for sort of 
rehashing it--possible violations of the Partial-Birth Abortion 
Ban Act. Indeed, in a letter dated August 4, 2015, responding 
to this Committee's request for an investigation of possible 
violations of the Partial-Birth Abortion Ban Act by Planned 
Parenthood, the Department of Justice stated that, ``Since the 
inception of the Partial-Birth Abortion Act, the Department has 
investigated allegations of health facilities that are related 
to possible violations of that law.''
    Is there any current investigation by the FBI related to 
Planned Parenthood and the footage that's been released by the 
Center for Medical Progress at this time that you know of?
    Mr. Comey. As I said in response to your earlier question, 
I will get back to you and let you know. As I sit here now, I 
don't have a strong enough grasp of where that stands. I do 
know letters were sent to the Department of Justice, but I've 
got to figure out exactly where we are, and I can get back to 
you.
    Mr. Franks. Okay. But as far as you know, even apart from 
the Planned Parenthood videos, do you know if any partial birth 
abortion ban investigations or enforcement actions have been 
taken by the FBI?
    Mr. Comey. I don't. I know we have jurisdiction to 
investigate such things. I believe we have, but I don't know 
enough to answer that well right here.
    Mr. Franks. Well, I would appreciate that last part being 
included in any response you have. Obviously, there's some of 
us, you know, that think that the rule of law applies to these 
little ones that have so little ability to protect themselves 
as well.
    Let me shift gears on you. I know there's been several 
questions asked today about gun violence, and I assure you I 
agree with your last answer completely that we want to do 
everything that we can to keep guns out of the hands of 
criminals and that it's vital for the sake and safety of the 
public that we do that.
    There are those of us that would ask law enforcement do we 
think that it would be wise to take guns out of the hands of 
law enforcement, and almost no one would suggest that, because 
we believe--I do--that guns in the hands of properly trained 
FBI agents is a protection to the public.
    And from my perspective, that would suggest that it's not 
the guns, it's whose hands they're in, because it's hard to 
make a case that if they're on the one hand a protective 
measure in the hands of police officers, that they're something 
that can protect and deter and prevent or interdict violence, 
that they're a good thing and that all of us from almost every 
spectrum of political consideration would suggest that, then 
the obvious, reasoned response becomes that it is, indeed, not 
the guns but whose hands they're in.
    So my question to you is, how do we separate the argument 
so that we are doing everything that we can to prevent those 
who have lost their Second Amendment rights, who have 
demonstrated violence toward society or some issue with a 
mental illness, how do we deal with that while still leaving 
intact the right to own and bear arms under the Second 
Amendment by those who follow the law and, indeed, oftentimes 
protect themselves and sometimes even protect officers of the 
law?
    Mr. Comey. I think, Congressman, that's a question for 
others, including Congress. The FBI's role is such that I think 
it's very important that that not be a conversation debate that 
we participate in because we don't make policy for the American 
people. The American people tell us what they think the law 
should be, how to solve these hard problems, and then we will 
enforce the law. I think that's critical to us remaining those 
three things I said, honest, competent, and independent. And so 
honestly it's just not a question I think the FBI should 
participate in professionally.
    Mr. Franks. Well, that's a very reasonable answer. I hope 
that we can do that. I think it will make your job easier, and 
it will augment the great work you do for the country.
    And with that, I am going to end my question time. Do we 
have any other--yes, we do. I think that Mr. Bishop is not 
here. Oh, I'm sorry.
    The gentleman, Mr. Bishop, you're recognized for 5 minutes. 
Flying under the radar there.
    Mr. Bishop. I did. I flew under the radar.
    Director, I was here earlier. I apologize for stepping out. 
I want to begin by thanking you for what you and your entire 
team does, because what you do on a daily basis is something 
that most of us don't even know about, we can't comprehend. And 
you keep us safe, and we're grateful for what you do. And on 
behalf of my family, my constituents, my State, my Nation, I'm 
very grateful to you and your entire department. So I wanted to 
tell you that.
    And I admire your testimony today, and thank you for your 
candor. You've been here forever taking a lot of questions.
    I thought maybe I'd asked you about Syrian refugees and 
what we're seeing. My State of Michigan is a huge hub for those 
of Middle Eastern descent. There is some concern about the 
onslaught of refugees into our country. And I apologize if 
you've answered this question, but I'd like to ask you, what do 
we know, how do we vet these refugees coming into our country? 
Is there a way to do it that we can rely upon?
    My office does a lot of immigration work. We work with 
those who are attempting to immigrate legally every day, and we 
help them any way we can to try and get through, jump through 
the hoops. It's very strange that we now have groups that are 
coming in in the way they are that really skip all those steps 
in between.
    So I'm just wondering if you could share with me what your 
experience is and what you know about the process.
    Mr. Comey. It's a process I describe as good news and bad 
news. The good news is we have gotten as a country, and the 
intelligence community in particular, much better at organizing 
ourselves so that we get a complete picture of what we know 
about somebody. We learned some lessons from Iraqi refugees 8 
years ago or so. And so we have gotten better at querying our 
holdings. And so if there is a ripple this person has created 
in our pond, I'm confident that we will see it and be able to 
evaluate it.
    The bad news is we will have less data with respect to 
folks coming out of Syria than we did with respect to Iraq, 
because we don't have the U.S. Army presence and all of that 
that would give us biometrics to query. So the risk is that 
someone who is a blank slate to us will be vetted by us in a 
process that's efficient and complete but will show no sign of 
anything because they've never crossed our radar screen. That's 
why I describe it as a process that's gotten a lot better but 
that we can't tell you is risk free.
    Mr. Bishop. And as time goes on, the process that you are 
going through will be more apparent to the American people. I 
say that because there are a lot of folks in my State who are 
very concerned. And, you know, that level of unknown, of not 
understanding exactly the process, has caused a little panic 
across the district. And the more that we can hear, the more we 
understand what the process is.
    We remember the Iraqi refugees in the State of Michigan, 
especially in my area, in southeast Michigan. So I appreciate 
your ongoing communication on how that's going.
    I want to switch gears with you real quick. I've had the 
pleasure of visiting and working with a number of youth-serving 
organizations in my district, and I know at least one of those 
organizations is here today represented. It's important work 
that they do in the community. And I've spoken to some of them 
about the importance of keeping their kids safe, and one of the 
ways to do that is getting background checks. It ensures so 
many different ways of fostering a safe environment. And it's 
really an issue I feel very deeply about. I have kids of my 
own.
    Can you talk a little bit about the value of including 
national FBI fingerprint background checks as a part of the 
comprehensive screening of staff and volunteers? There are so 
many that are right there with our children, and we know that 
the FBI background checks is the gold standard of the process. 
Can you share a little bit about how we can promote that and 
encourage that?
    Mr. Comey. Yes. Thank you, Congressman. And I think, if I 
remember correctly, we have actually been doing a pilot program 
on that topic at our criminal justice information systems 
operation, which I do believe is the gold standard. You're 
right. So anybody who wants to ensure that people in contact 
with children or in any other sensitive position have been 
checked out, the best way to do it is working with us so we can 
query our holdings.
    And as an exciting new feature that's coming on now as part 
of our Next Generation Identification, we're building in 
something called Rap Back, which means if you query somebody as 
a daycare provider, if they are ever again arrested, you will 
get notified, because that's been a hole in the system. People 
are clean when they first go in. Then they get in trouble 5 
years down the road. You never tell the daycare about this. So 
Rap Back will make a big difference and make the gold standard 
platinum in a way. So I very much agree with your sentiment on 
that topic.
    Mr. Bishop. Did you say Rap Back?
    Mr. Comey. Rap Back, R-a-p B-a-c-k. So if someone develops 
a rap sheet, we get back.
    Mr. Bishop. Got you. All right. That's the connotation. 
Okay.
    Sir, thank you very much for your time. I appreciate all 
your testimony today.
    With that, I yield back.
    Mr. Franks. I thank the gentleman, and I apologize for 
missing him the first time.
    And I now recognize Mr. Ratcliffe for 5 minutes.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Director Comey, thanks for being here. It's good to see you 
a second day in a row.
    Mr. Comey. Yes, sir.
    Mr. Ratcliffe. I want to ask you a couple cybersecurity 
issues. Before I do that, I did want to follow up from a 
question I asked you at the Homeland Security Committee 
yesterday. We had a brief exchange about the President's 
decision to take in 10,000 Syrian refugees over the next year. 
And as we talked about, that's a 500 or 600 percent increase 
over prior years.
    And I had indicated to you that, humanitarian concerns 
aside, I was troubled with respect to the national security 
aspects of it, as you're hearing from many of my colleagues 
here, particularly because ISIS has said that it would use or 
would try to use the refugee process to get into the United 
States. And further to that point, as you've testified, our own 
databases don't have information on some of these individuals, 
so there are gaps of intelligence there.
    So we had a discussion about that figure of 10,000 
yesterday. I guess if you had been the sole decider on that 
issue, what figure would you have recommended to the President?
    Mr. Comey. I don't know. And I'm pleased to say it's not my 
job to recommend that to the President. I just don't know.
    Mr. Ratcliffe. Well, I understand that. I know the FBI is 
not a policymaking body with respect to that issue. But as you 
recall, we had a discussion. I asked Secretary Johnson the same 
thing, and he assured me that there was an interagency process.
    But I guess what I'm trying to get at was, is this a figure 
that the Administration presented to you and said, you know, 
meet the security obligations that come with this, or was this 
part of a process where there was actually input from folks 
like you that should be providing input on what that number 
would be?
    Mr. Comey. I think there was plenty of input from the FBI 
and other parts of the intelligence community on sort of how we 
thought about the good news and the bad news. I don't know and 
don't recall and don't know if I could say even if I did recall 
how a number came up. It wouldn't have come from the FBI. But I 
just don't know.
    Mr. Ratcliffe. Okay. Well, you understand the concern that 
we would hope that these decisions were driven by intelligence 
rather than political reasons or pressure from our European 
allies or other folks around the world. And so that's why I 
asked the question.
    But turning to cybersecurity, and I Chair the Subcommittee 
on Cyber at Homeland, and in your written testimony you said--I 
want to make sure I get this right--``An element of virtually 
every national security threat and crime problem the FBI faces 
is cyber-based or facilitated.'' And I want that to sink in for 
everyone because it's such an important point for us to 
consider in our oversight of the FBI. I think it really speaks 
to the gravity of the issue here that you're seeing a cyber 
element to almost every national security threat and crime 
problem.
    So aside from the encryption issue, which I've had the 
opportunity to hear you talk about in the past, what are the 
major challenges that you face in detecting and prosecuting 
cybercrime right now at the FBI?
    Mr. Comey. Thank you for that question and thank you for 
your interest in that issue and your leadership there.
    Two big issues are getting the right folks and the right 
equipment, in reverse order. The bad guys have very 
sophisticated equipment, and so if we're going to be good at 
responding to all the threats we're responsible for, we got to 
make sure we have world class systems.
    And then we got to have great people to operate them, and 
that's a challenge when we're facing a cybersecurity industry 
that will pay young folks a lot of dough to go work in the 
private sector. We compete on mission. I tell these people 
you're not going to make much of a living, you're going to make 
a great life. I hope that convinces their families as well, but 
those are the two big focuses for us.
    Mr. Ratcliffe. Terrific. Thank you, Director.
    So the issue of insider threats has been described by at 
least some as the greatest threat to businesses that operate in 
cyberspace. And of course we all saw the scale of that threat 
with respect to Edward Snowden. I know that the Department of 
Justice has asked Congress for clarity on the law in this area 
for assistance in prosecuting insiders who access sensitive 
data that they're not authorized to, and I want to give you an 
opportunity to elaborate on that from your perspective.
    Mr. Comey. It's an important part of the threat. That's 
absolutely true. I don't know what the Department's questions 
and concerns are about their legislative authorities on that 
front, so I don't think I can offer anything useful there.
    Mr. Ratcliffe. Okay. Well, good.
    My time has expired, but like everyone else, I want to 
express my thanks. Of course I had the opportunity to work for 
you, both when you were the Acting Attorney General and as the 
Deputy Attorney General, and because of that I have great 
confidence in you. And I am grateful for your continued service 
and am comforted by the fact that you're in the Director's 
chair and that you're the person making such important 
decisions about our Nation's security. So thank you.
    And with that, Mr. Chairman, I yield back.
    Mr. Comey. Thank you.
    Mr. Franks. Well, I would take a moment to echo those 
comments. With 7-year-old children, we're grateful that people 
like you are on the job.
    This would conclude today's hearing. Thanks to our 
distinguished witness for attending. Thank the audience here. 
Grateful to all of you for being here.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witness or 
additional materials for the record.
    And with that, thank you again, Director Comey.
    This hearing is adjourned.
    [Whereupon, at 1:01 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Questions for the Record submitted to the Honorable James B. Comey, 
               Director, Federal Bureau of Investigation*
---------------------------------------------------------------------------
    *Note: The Committee did not receive a response to these questions 
at the time this hearing record was finalized and submitted for 
printing on March 21, 2016.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
